<html>
<title> - INTERNATIONAL COUNTERNARCOTICS POLICIES: DO THEY REDUCE DOMESTIC CONSUMPTION OR ADVANCE OTHER FOREIGN POLICY GOALS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
   INTERNATIONAL COUNTERNARCOTICS POLICIES: DO THEY REDUCE DOMESTIC 
           CONSUMPTION OR ADVANCE OTHER FOREIGN POLICY GOALS?

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                           Serial No. 111-157

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-556                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       DAN BURTON, Indiana
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
PETER WELCH, Vermont                 ------ ------
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2010....................................     1
Statement of:
    Ford, Jess T., Director, International Affairs and Trade 
      Team, U.S. Government Accountability Office................    12
    Isacson, Adam, senior associate for regional security, 
      Washington Office on Latin America; Vanda Felbab-Brown, 
      Ph.D., foreign policy fellow, the Brookings Institution; 
      and Mark Kleiman, M.P.P. and Ph.D., professor of public 
      policy, UCLA School of Public Affairs......................   109
        Felbab-Brown, Vanda......................................   131
        Isacson, Adam............................................   109
        Kleiman, Mark............................................   149
    Kerlikowske, R. Gil, Director, Office of National Drug 
      Control Policy; David T. Johnson, Assistant Secretary of 
      State, Bureau of International Narcotics and Law 
      Enforcement, U.S. State Department; and William F. 
      Wechsler, Deputy Assistant Secretary of Defense for 
      Counternarcotics and Global Threats, U.S. Department of 
      Defense....................................................    44
        Johnson, David T.........................................    67
        Kerlikowske, R. Gil......................................    44
        Wechsler, William F......................................    79
Letters, statements, etc., submitted for the record by:
    Felbab-Brown, Vanda, Ph.D., foreign policy fellow, the 
      Brookings Institution, prepared statement of...............   133
    Ford, Jess T., Director, International Affairs and Trade 
      Team, U.S. Government Accountability Office, prepared 
      statement of...............................................    15
    Isacson, Adam, senior associate for regional security, 
      Washington Office on Latin America, prepared statement of..   112
    Johnson, David T., Assistant Secretary of State, Bureau of 
      International Narcotics and Law Enforcement, U.S. State 
      Department, prepared statement of..........................    69
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, prepared statement of.............................     8
    Kerlikowske, R. Gil, Director, Office of National Drug 
      Control Policy, prepared statement of......................    47
    Kleiman, Mark, M.P.P. and Ph.D., professor of public policy, 
      UCLA School of Public Affairs, prepared statement of.......   151
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Wechsler, William F., Deputy Assistant Secretary of Defense 
      for Counternarcotics and Global Threats, U.S. Department of 
      Defense, prepared statement of.............................    82


   INTERNATIONAL COUNTERNARCOTICS POLICIES: DO THEY REDUCE DOMESTIC 
           CONSUMPTION OR ADVANCE OTHER FOREIGN POLICY GOALS?

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Tierney, and Jordan.
    Staff present: Jaron R. Bourke, staff director; Claire 
Coleman, counsel; Charisma Williams, staff assistant; Justin 
LoFranco, minority press assistant and clerk; Sery Kim, 
minority counsel; and Molly Boyl and James Robertson, minority 
professional staff members.
    Mr. Kucinich. The Subcommittee on Domestic Policy of the 
Committee on Oversight and Government Reform will now come to 
order.
    The hearing will evaluate international supply reduction 
programs intended to stop the flow of illicit drugs into the 
United States. We will be joined shortly by some of my other 
colleagues here, and I appreciate the cooperation of the 
minority staff in permitting us to proceed.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Today I want to welcome all of you who are here today and 
to let you know that I appreciate your taking the time to join 
us for this important discussion about the issue of supply 
reduction.
    This subcommittee continues its oversight of the Office of 
National Drug Control Policy by focusing on U.S. international 
counternarcotics policies and programs. Over the last decade 
international supply reduction efforts in source countries and 
transit zones have accounted for almost 40 percent of the 
Federal spending on drug policy. Funding levels for 
international counternarcoticss were not always so high. Under 
the Bush administration, Federal resources for supply reduction 
increased by over 60 percent. Interdiction spending, alone, 
increased over 100 percent.
    But, despite acknowledgement from the current 
administration that international supply site programs like 
crop eradication and interdiction have not been effective in 
reducing the availability of drugs in the United States and 
that treatment and prevention are far more cost effective, 
those programs are still being funded at significant levels.
    The President's drug control budget request for fiscal year 
2011 asks for $15\1/2\ billion, of which $6 billion is slated 
for international support and interdiction.
    This hearing will scrutinize those spending decisions and 
evaluate what we have accomplished in this decade through 
supply reduction programs, both in terms of the national drug 
policy goal of reducing consumption in the United States and 
other foreign policy objectives.
    We will hear from the Government Accountability Office, 
which will tell us that, for all the money we spent in 
international counternarcotics programs, there has been limited 
success in reducing the flow of drugs to the United States, and 
we have done a poor job of ensuring that there are high-quality 
criteria to measure how useful and cost effective these 
programs really are.
    This is consistent with what many drug policy experts have 
been saying for years. The evidence, after all, is stark. After 
spending billions of dollars on aerial spraying programs and 
efforts to interdict drugs, drug supply and consumption in the 
United States remains strong.
    The question we hope today's hearing will answer is: if 
international programs like eradication or interdiction simply 
cannot make much of a difference in U.S. drug consumption, then 
to what extent should we be continuing these costly programs? 
We cannot and we do not ignore legitimate national security 
concerns, and we must face squarely connections between the 
illicit drug trade and insurgents or terrorists. But such 
international policies and goals should not be confused with 
drug control policy in the United States.
    If the goals of these programs are, in fact, now justified 
on grounds of national security and helping stabilize democracy 
and rule of law abroad, then we need to evaluate whether and 
how U.S. counternarcotics policy and dollars should play a role 
in those programs, if at all, and what role the White House 
Office of National Drug Control Policy should play as the 
leader in Federal drug control policy.
    Our witnesses today will applaud some shifts we are seeing 
in international counternarcotics efforts under this 
administration, de-emphasizing military and police aid and 
focusing more on strengthening civilian governance, justice, 
and economic opportunity. For the first time, the U.S. 
Government is starting to consider anti-poverty programs and 
justice reform as part of its counternarcotics efforts, 
recognizing that marginalized populations must have sufficient 
legal alternative livelihoods if we can hope that they will 
cease illegal crop cultivation and trafficking.
    But they will also caution that U.S. counternarcotics 
programs are in danger of repeating the same mistakes we have 
made in the past and must undertake an honest assessment of the 
unintended negative consequences of these policies. For 
example, Mexico's efforts to crack down on drug trafficking is 
one factor generating a wave of horrifying killings. Our 
efforts in Afghanistan may be contributing to the insurgency by 
enriching the Taliban.
    Our work in Colombia, while successful in improving 
security, came with significant costs. Aerial spraying has 
grievously harmed the environment and punished impoverished 
farmers who have no other way to feed themselves. And U.S. 
support of Colombian military's fight against guerrillas 
effectively underwrote extensive human rights violations that 
have gone unpunished.
    Those unintended consequences will be discussed at today's 
hearing as part of an effort to evaluate these counternarcotics 
programs holistically.
    Again, I want to thank each and every one of you for your 
attendance, and thank the witnesses for their appearance here 
today.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5556.001

[GRAPHIC] [TIFF OMITTED] T5556.002

[GRAPHIC] [TIFF OMITTED] T5556.003

    Mr. Kucinich. Now it is my privilege to recognize the 
ranking member of the committee and my partner in so many of 
these important hearings, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. I apologize for 
running a few minutes late. We were actually downstairs in the 
other room.
    Thank you, Chairman Kucinich, for holding this important 
hearing today. Our Nation continues to face a drug problem that 
takes lives, brings about violence, and tears apart communities 
and families. We need to take every opportunity and make every 
effort to eliminate this problem with an approach that focuses 
both on keeping drugs from entering the country and curbing 
addiction here at home.
    In the last decade the United States spent over $20 billion 
to fight the war on drugs domestically and internationally. 
Winning the war on drugs is vital to the health and safety of 
Americans at home, and it is important to our national 
security.
    The threats surrounding the international drug trade from 
the Taliban in Afghanistan to the violent cartels in Mexico is 
real and has serious foreign policy implications. I am pleased 
to see that ONDCP budget request for 2011 increases both the 
international and interdiction components of the drug control 
budget. Support for the U.S. Government's international 
eradication and interdiction efforts is an important part of 
the supply reduction strategy.
    Through eradication, interdiction, enforcement, and basic 
Government support, we have seen some success, but we need to 
be certain that our international drug policies translate into 
reduced supply and ultimately reduced demand here at home. We 
know that drug trafficking has provided a means of funding 
terrorists and insurgent groups, some of which we are fighting 
abroad. However, there is some debate over how best to curtail 
these activities.
    I look forward to hearing from the witnesses today about 
which programs are working, which ones aren't, and how we can 
do the most good with the limited resources we have.
    Mr. Chairman, I yield back before this microphone drives 
everyone crazy.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.004
    
    [GRAPHIC] [TIFF OMITTED] T5556.005
    
    [GRAPHIC] [TIFF OMITTED] T5556.006
    
    [GRAPHIC] [TIFF OMITTED] T5556.007
    
    Mr. Kucinich. I thank the gentleman for his presence here. 
As the days wind down in the House, there are many different 
things going on simultaneously, including markups, so I may 
need to briefly recess this hearing to run to a markup 
downstairs, only for the purpose of voting. I just want to give 
everyone a heads-up about that.
    I want to introduce our first panelist. Mr. Jess Ford is 
currently Director of International Affairs and Trade for the 
Government Accountability Office, the GAO. He joined GAO in 
1973 and has worked extensively on national security and 
international affairs activities. He has managed GAO audits of 
the U.S. Agency for International Development, the State 
Department, DHS, and Department of Defense and other Federal 
agencies.
    Mr. Ford, I want to thank you for appearing before our 
subcommittee.
    One other thing about today. We were not supplied with a 
clock here, so that means your testimony will be timeless. 
[Laughter.]
    But still 5 minutes. [Laughter.]
    So if staff would kind of give me the heads-up when it is 
five, I will just wave or say something to indicate that it 
would be good to wrap it up. But, as you know, your entire 
statement will be included in the record, and it is much 
appreciated that you are here.
    Mr. Ford, I would like you to know that it is customary for 
all witnesses who appear before the Committee on Oversight and 
Government Reform to be sworn in before they testify. I would 
ask that you would stand. Please raise your right hand.
    [Witness sworn.]
    Mr. Kucinich. Thank you, sir.
    Let the record reflect that the witness answered in the 
affirmative.
    You may proceed, Mr. Ford. Thank you.

STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
       TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Mr. Chairman, members of the subcommittee, I am 
pleased to be here today to discuss GAO's body of work on 
international interdiction counternarcotics activities. Over 
the last decade, we have issued over 20 reports covering a wide 
array of program activity in countries such as Colombia, 
Afghanistan, the transit zone, Mexico, Venezuela, and other key 
countries that are involved in international drug trafficking.
    Today I am going to talk about four topics which I would 
like to mention to this subcommittee. First, having to do with 
the issues related to the reported results of some of our 
programs. Second, I am going to talk about factors that relate 
to our ability to judge the effectiveness of our programs. 
Third, I want to talk a little bit about the nexus between our 
counternarcotics goals and our other foreign policy objectives. 
And fourthly I am going to discuss the difficulties in trying 
to measure the effectiveness of these programs.
    A key goal of the U.S. national drug control strategy is to 
reduce illicit drug use in the United States. These programs 
are designed primarily in source countries such as Colombia and 
Afghanistan, as well as in transit countries such as Mexico, 
Central America, and the Caribbean. They have included 
interdiction of maritime drug shipments on the high seas, 
support for foreign military and civilian institutions engaged 
in drug eradication, detection, and also the rule of law and 
alternative development programs, all of which are designed to 
affect the supply of drugs that are coming to the United 
States.
    GAO's work on these programs, I want to first talk about 
the first topic, which is really what the results have been 
reported.
    We have found that in Afghanistan, Colombia, and in the 
drug transit zones the United States and its partner nations 
have only partially met targets that have been established to 
reduce drug supply. For example, we recently reported in 
Afghanistan that opium poppy eradication efforts consistently 
fell between targets established by the administration. While 
some Afghan provinces are now poppy free, United States and 
Afghan opium poppy eradication strategy did not achieve its 
original goals of reducing the level of poppy in the country.
    In 2008 we reported that after 6 years plan, Colombia had 
met some of its key goals in reducing poppy cultivation, but it 
had not achieved its goal for reducing coca crops. Most 
recently, the administration has reported additional reductions 
in the amount of potential cocaine that can be produced in 
Colombia, which suggests that the program has, in fact, 
achieved some of the original goals intended, although for a 
longer period of time than was originally established.
    We note that our interdiction goals to stop the flow of 
drugs primarily through the transit area, we have not achieved 
any of those goals since 2007.
    My second point has to do with the factors that influence 
program effectiveness, and I am going to just briefly touch on 
some of these. I think in the Q and A I can get into this in a 
little more detail. But the key issues that we find in our work 
that affect our ability to reduce the supply of illegal drugs, 
first and foremost is the level of commitment and cooperation 
by our partners in influencing the effectiveness of these 
programs. In Colombia we reported that over the years the 
degree of political commitment and commitment on the part of 
the Colombian government was a major factor in our ability to 
reduce supplies in that country and to achieve some of the 
broader foreign policy goals, which I will talk about later.
    Conversely, in other countries where we have had less 
levels of cooperation, such as in Venezuela, we were unable to 
effectively achieve some of our interdiction goals because the 
government there has not been cooperative with the U.S. 
Government since 2005.
    Another factor that we frequently identified in our work 
has to do with the level of sustainment that our programs have 
had, particularly in places in the transit zone and in Central 
America, where we have provided resources intended to enhance 
the capacity of those countries to interdict drugs, but the 
programs, themselves, due to lack of sustainment, have not 
achieved their intended objectives.
    A third area that I would like to comment on has to do with 
the nexus between our counternarcotics programs and other 
foreign policy objectives. Currently, in places such as 
Colombia and Afghanistan, much of our programs there, our 
counternarcotics programs, are part of our broader foreign 
policy objectives to deal with, in the case of Afghanistan, our 
counterinsurgency problem, and in the case of Colombia to deal 
with the problems of security with the FARC and other illegal 
groups there. I am going to get to this in a minute, but in 
trying to assess effectiveness, we find that this overlap 
between counternarcotics and foreign policy goals is 
problematic in trying to assess the overall effectiveness.
    Finally, the last point I would like to make has to do with 
the difficulties in trying to measure the overall effectiveness 
of these programs. We have found in many of our reports that 
U.S. agencies lack a reliable performance measurement and 
results information to really judge whether or not we are 
having a major impact in reducing those supplies and flow of 
drugs to the United States. An example, in Afghanistan we found 
that our opium eradication measures were not sufficient for 
assessing overall U.S. efforts.
    We also reported that the State Department in the transit 
area was not able to measure more than half of their programs 
intended to reduce the flow of drugs. This morning we are 
issuing a new report on the Department of Defense efforts to 
enhance their performance system, and our findings are that DOD 
still has not got an effective performance measurement system 
that enables one to determine whether or not their programs are 
achieving the intended results.
    I am not going to get into all the recommendations we made. 
I can just say that for the 20 products that I mentioned we had 
several recommendations designed to address many of these 
shortcomings, and in most cases the administration, and 
agencies that we dealt with, agreed with our recommendations 
and they have taken action.
    With that, I think I am going to close. I would be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.008
    
    [GRAPHIC] [TIFF OMITTED] T5556.009
    
    [GRAPHIC] [TIFF OMITTED] T5556.010
    
    [GRAPHIC] [TIFF OMITTED] T5556.011
    
    [GRAPHIC] [TIFF OMITTED] T5556.012
    
    [GRAPHIC] [TIFF OMITTED] T5556.013
    
    [GRAPHIC] [TIFF OMITTED] T5556.014
    
    [GRAPHIC] [TIFF OMITTED] T5556.015
    
    [GRAPHIC] [TIFF OMITTED] T5556.016
    
    [GRAPHIC] [TIFF OMITTED] T5556.017
    
    [GRAPHIC] [TIFF OMITTED] T5556.018
    
    [GRAPHIC] [TIFF OMITTED] T5556.019
    
    [GRAPHIC] [TIFF OMITTED] T5556.020
    
    [GRAPHIC] [TIFF OMITTED] T5556.021
    
    [GRAPHIC] [TIFF OMITTED] T5556.022
    
    [GRAPHIC] [TIFF OMITTED] T5556.023
    
    [GRAPHIC] [TIFF OMITTED] T5556.024
    
    [GRAPHIC] [TIFF OMITTED] T5556.025
    
    [GRAPHIC] [TIFF OMITTED] T5556.026
    
    [GRAPHIC] [TIFF OMITTED] T5556.027
    
    [GRAPHIC] [TIFF OMITTED] T5556.028
    
    [GRAPHIC] [TIFF OMITTED] T5556.029
    
    [GRAPHIC] [TIFF OMITTED] T5556.030
    
    Mr. Kucinich. Thank you very much, Mr. Ford.
    I am looking at the report, and would just like to piece 
together some of the comments, the statements that are in this 
report.
    You talk about factors that limit program effectiveness, 
including external factors in partner nations that relate to 
corruption or lack of political support. Then the report goes 
on to talk about a lack of political will on the part of Afghan 
central and provincial governments. And then you also, on a 
section on limited cooperation between the United States and 
partner nations, talk about the objections of Afghan officials 
to certain eradication efforts, and them being slow to grant 
permission to eradicate poppy fields.
    Talk to this subcommittee a moment about the effect of 
corruption in Afghan's central government and the impediment 
that presents for the eradication of drugs in Afghanistan, or 
the eradication of these drug crops in Afghanistan.
    Mr. Ford. In our report issued in March, we discussed the 
problems that our program implementers have had in trying to 
get cooperation with elements of the Afghan government. The 
program at that time was being administered at the provincial 
level, where the Governors of various provinces were our 
partners, and our ability to get them to support our 
eradication efforts varied from one place to another, and in 
some places they were unwilling to partner with us and take the 
actions that were necessary to help achieve the eradication 
goals. That is one of the key reasons why we didn't achieve 
those goals.
    Mr. Kucinich. Is it also one of the reasons why production 
seems to go up?
    Mr. Ford. Certainly if we are not able to eliminate the 
crop, I mean, if the crop is not eliminated, then obviously 
production will go up.
    Mr. Kucinich. Production has gone up substantially.
    Mr. Ford. The level of production in Afghanistan, I don't 
have the exact numbers. I could supply them for the record. But 
my understanding is that they have gone up. In some provinces 
they have gone up; in other provinces the level of poppy 
cultivation has actually gone down. So it varies what part of 
the country you are in. But all in southern part of Afghanistan 
is where most of the poppy is currently being cultivated. That 
is the main problem area that we are trying to address.
    Mr. Kucinich. And how much of an increase has there been 
there?
    Mr. Ford. Again, I don't have the numbers here in front of 
me, but I can supply them for the record.
    Mr. Kucinich. Your report states that since 2006 cocaine 
removal rates from interdiction have declined and have not 
reached any of the annual targets to date. It also states that 
long-term gains in crop eradication are difficult because of 
counter-measures and shifts in production. Yet, we spend 
billions of dollars a year on expensive interdiction and crop 
eradication efforts.
    Is there currently any data that would allow for a cost-
effective analysis of supply reduction programs, like crop 
eradication or interdiction, in reducing supply of illicit 
drugs?
    Mr. Ford. Let me just clarify. Are you asking just about 
Afghanistan, or in general?
    Mr. Kucinich. In general.
    Mr. Ford. OK. I have not seen any cost effectiveness 
analysis directly related to your question, related to either 
supply reduction or interdiction in terms of how it affects 
consumption in the United States. The Office of National Drug 
Control Policy reports lots of different data on levels of 
consumption in the United States based on surveys that it 
takes, but I have not seen any analysis that shows a 
correlation between the supply reduction effort and the 
interdiction effort.
    We in GAO have not studied that in any detail.
    Mr. Kucinich. It is troubling that there is an absence of 
useful metrics to measure success of supply reduction programs, 
especially when we are spending billions of dollars a year. One 
of the principal goals of this subcommittee is to enhance and 
improve upon ONDCP's role in collecting and analyzing data to 
ensure we create drug policy based on what works, and knowing 
what doesn't work.
    One drug policy researcher has estimated that, while the 
United States spent 60 percent of our budget on supply 
reduction, supply side agencies spend only about 5 to 10 
percent of the total drug policy research budget. Based on 
GAO's work, do you agree with this assessment that enforcement 
agencies are not adequately oriented toward data collection, 
research, and analysis that would conceivably improve 
programming?
    Mr. Ford. We certainly think that research and collecting 
good data on these problems is certainly needed. I mean, one of 
our major findings, as I mentioned earlier, for most of our 
work is that we don't have good performance metrics and we 
don't have good data to support them to enable one to make good 
decisions about what course of action we should be taking, so 
that is a fundamental problem that we have seen throughout the 
10-years we have been studying this.
    Mr. Kucinich. Just a followup before Mr. Jordan asks 
questions. What types of assessment and program planning tools 
are needed by U.S. agencies to effectively assess 
counternarcotics efforts? And are you aware of any of these 
agencies currently working to improve their metrics?
    Mr. Ford. Well, first of all, on the Department of Defense, 
the report that we are issuing today, we comment on the 
performance measurement system that DOD has in place. We are 
critical of that system. DOD is currently in the process of 
revising their performance measurement system. They have been 
working on that for several months.
    Our big concern really having to do with DOD is that we 
don't believe they can currently tell anyone exactly to what 
extent they are able to carry out their mission in terms of 
what works and what doesn't work, because they don't have a 
good way of assessing the performance of their program 
elements.
    Moreover, our report also shows we talked to many of their 
client organizations, and we found that many of them aren't 
using the performance system that is in place now. So they need 
to do two things. They need to first improve the system and, 
No. 2, they have to get the commands that are carrying out the 
programs to use it as a tool for making the right kinds of 
decisions. Those are the two things that we recommended in that 
report.
    Mr. Kucinich. Thank you.
    Mr. Jordan, why don't you take 7 minutes if you would like.
    Mr. Jordan. Thank you, Mr. Chairman.
    Let me just pick up, Mr. Ford, where the chairman was. Of 
the $1\1/2\ billion DOD spent last year, how much of that money 
was marked for assessment and measuring the effectiveness or 
lack of effectiveness of the program? Do you know that?
    Mr. Ford. I do not know that. I do not know how much money 
they spent for performance measurement.
    Mr. Jordan. OK. That would certainly be a place to start 
when we are trying to figure out how to measure this. We can't 
even tell how much money they allocated for that. That is an 
indication that it is not working the way we want it to.
    In your comments, Mr. Ford, I believe you said on Plan 
Colombia that it had met some of its goals, but not relative to 
coca crops. How far off were they from meeting their goals 
there?
    Mr. Ford. Well, can I explain? We issued a report in 2008.
    Mr. Jordan. Yes.
    Mr. Ford. One of the original goals of Plan Colombia was to 
reduce coca cultivation by 50 percent using 2000 as a baseline. 
Our report in 2008 in 6 years showed that after 6 years we did 
not achieve that goal. We did achieve that goal for poppy 
eradication, which was in our report.
    Since that time we have seen some new data that ONDCP has 
put out that shows that the level of potential coca production 
has declined fairly significantly in 2008, so over an 8-year 
period you could argue they met the goal, but during the 
original goal they didn't achieve it. That is what our report 
said in 2008.
    Mr. Jordan. And is it fair to meet these goals? Is this 
back to, I think, the chairman's questioning. What do you 
attribute that to? Is it the lack of cooperation from local 
authorities? Elaborate, if you would.
    Mr. Ford. OK. Well, I think it is a little bit difficult to 
answer that question because part of this has to do with the 
way we survey what the potential is in that country. When we 
started the program in 2000, the methodology that was used to 
determine what the potential coca cultivation level and what 
the potential production was different. It changed in 2004 and 
2005. The CIA, who does these surveys, changed their 
methodology. So that came up with different results.
    Part of the problem was what denominator you use to try to 
judge that success level.
    Mr. Jordan. Yes.
    Mr. Ford. So part of it is what I would call a 
methodological challenge on the part of our Government to 
determine what exactly exists there, what can be produced, and 
what the potential is for these drugs to come to the United 
States. So part of it is that.
    Then, as far as the actual implementation of the program, 
you have to look at it over time. I think our work in the early 
years of Plan Colombia, we identified lots of problems with the 
way our Government was implementing the program in partnership 
with the Colombian government. Over time I would say that the 
relationship improved fairly significantly, and that probably 
had a positive impact in the ability for us to eradicate some 
of those crops.
    But I don't think necessarily you can establish a causal 
relationship between all of those various efforts and the 
current outcome. I think we need to look at what the trend will 
be over the next several years, to see if it really did have a 
meaningful impact.
    Mr. Jordan. Let's go back to this measurement and 
assessment concern, kind of a broad category here. Why has the 
State Department not reported outcome related information for 
over half of its major drug countries?
    Mr. Ford. That work is based on a report we did on the 
transit areas. This is primarily in Central America.
    Mr. Jordan. Right.
    Mr. Ford. In the Caribbean. In that work we identified, the 
State Department had identified a number of performance 
indicators, but they just hadn't matched them together with 
reasonable results. They had an indicator that said we are 
going to train 50 police officers in Guatemala, but what they 
didn't say was whether or not those officers, in turn, would be 
used to address the counternarcotics problem versus just 
fighting crime, in general. Those kind of things weren't 
identified in their reports, so for us it was difficult to show 
what are the real results of this effort.
    We see that a lot, by the way. Often the administration 
will have these indicators, like we trained certain number of 
people, we added five pieces of new inspection equipment on the 
border, but we don't link that to what are the outcomes of 
that. What are we getting for it? Are we seizing more drugs? 
Are we reducing the crime levels? Is the level of violence 
going down? Those kind of things we haven't typically seen in 
many of these systems we use to measure our programs.
    Mr. Jordan. Yes.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    We are going to go to one more round of questions for Mr. 
Ford.
    New York Times is reporting that GAO's report being 
released this afternoon found that the State Department has 
failed to set specific targets to determine whether the money 
was having the desired effect of disrupting organized crime 
groups and reforming law enforcement agencies. Is this an 
accurate summary of your findings with respect to Mexico?
    Mr. Ford. I can tell you that the report hasn't been 
released yet, so I am not quite sure where the New York Times 
got that information, but I can tell you that we are going to 
be reporting that performance measurement is a challenge. 
Absolutely.
    Mr. Kucinich. Let's talk about Afghanistan. In March 2010 
the GAO report evaluating the U.S. strategy to combat drugs in 
Afghanistan, one of the key points was that insufficient 
mechanisms were in place to evaluate the counternarcotics 
strategies justice reform pillar. To what extent is this 
deficiency specifically for Afghanistan or of U.S. 
counternarcotics policy broadly, and is this also true in 
Mexico?
    Mr. Ford. I can tell you that our work looking at judicial 
reform, which is usually an element of our counternarcotics or 
security strategy in many of these countries, that our work 
over the years has shown that the administration has not done a 
very good job of measuring the impact. Again, it just gets into 
a case of we trained X number of prosecutors, that type of 
thing, which gives you some information but doesn't really tell 
you whether or not real reform in the country is occurring or 
not.
    The other thing, our work in Colombia, our work in 
Afghanistan shows that changing the judicial system in these 
countries takes years. In the case of Colombia, we attempted to 
have them change their prosecuting system to an accusatorial 
system similar to what we have in our country. That has taken 
years for them to put that in place. My understanding is they 
do have it in place now, but it was a long-term effort. We are 
trying to do that in Mexico. It is in the early stages, so I 
don't think we have any information to indicate whether it is 
having any impact.
    But the bottom line is those kind of programs are one of 
the key areas where we don't see very good performance 
information to tell you what the results are.
    Mr. Kucinich. One final question. Your testimony states 
that counternarcotics related programs often advance broad 
foreign policy objectives, and you cited Afghanistan as an 
example where the United States has combined counternarcotics 
efforts with military operations to combat insurgents as well 
as drug traffickers.
    But isn't there also evidence that prior to the 
administration's decision to stop forced crop eradication the 
counternarcotics programs actually hindered rather than 
advanced foreign policy goals of stabilizing the country? Are 
there other examples where counternarcotics have actually 
undermined other foreign policy goals?
    Mr. Ford. Well, with regard to Afghanistan, obviously the 
administration changed its strategy there. One of the 
rationales they have used is the one that you just articulated, 
that they felt that the eradication program was a negative 
influence on our counterinsurgency effort there. Now the new 
strategy is to focus more on interdiction.
    Mr. Kucinich. What do you think?
    Mr. Ford. In terms of whether or not that is going to work 
or not?
    Mr. Kucinich. Yes.
    Mr. Ford. I don't think there is any basis for us to say 
whether it will work or not at this point, because they just 
changed the strategy within the last year.
    Mr. Kucinich. Based on your evaluation, though, of these 
programs in the past, do you have any informed opinion that you 
would like to share with this subcommittee?
    Mr. Ford. Well, I don't have an independent opinion about 
whether that policy was working or not. We said in the report 
their eradication goals were never achieved from 2005 to 2009, 
so for that 4-year period the data would suggest we weren't 
achieving those goals.
    We didn't say that policy was contrary to our 
counterinsurgency goals. We didn't make an evaluation of 
whether that was a wrong policy to implement that program.
    Mr. Kucinich. Thank you, Mr. Ford.
    Mr. Jordan.
    Mr. Jordan. Just one question, and this may be more 
appropriate for Mr. Kerlikowske in the next panel, but is there 
an effort across Government agencies to put in place--and the 
chairman was getting into this in his first round, as well--a 
consistent way to measure how we are doing, to measure success 
or lack of?
    Mr. Ford. Actually, I will tell you what I know. It is my 
understanding that ONDCP is currently actually assessing the 
whole dynamic of how to measure performance. I don't know much 
about the details of what they are doing. I have talked to some 
of their staff and they have indicated they are revisiting this 
whole concept, but I just don't know what they are going to be 
doing on it.
    Mr. Jordan. I probably should know this, but on the other 
side, the success of treatment programs and measurements we 
have there, have you looked at some of that, as well?
    Mr. Ford. To my knowledge, GAO has not looked at that 
extensively recently. The part of GAO that would normally do 
that work, my understanding is the last time they looked at 
this issue was at least 10 years ago.
    Mr. Jordan. Really?
    Mr. Ford. So I am not aware we have done any major, 
significant work on treatment; however, for the record I will 
go back and check, just to make sure that I am right on this.
    Mr. Jordan. All right. Do you happen to know how much money 
taxpayers have put in to treatment programs?
    Mr. Ford. I don't have that number in front of me. I know 
that is in the ONDCP budget announcement, but I don't have the 
exact amount in front of me so I can't estimate what number 
that is.
    Mr. Jordan. But certainly something we should be measuring 
and finding out how we are doing.
    Mr. Ford. I would agree with that. I think all aspects of 
our drug program should be evaluated. I agree with that.
    Mr. Jordan. OK. Thank you.
    Mr. Kucinich. Mr. Ford, the subcommittee will have some 
final questions to present to you in the next few days, but we 
appreciate your presence here and your service to our country.
    Mr. Ford. Thank you, sir.
    Mr. Kucinich. You are dismissed as a witness and we are 
going to call the next panel.
    I will introduce the next panel as our staffer helps 
prepare this table for their testimony.
    Mr. Gil Kerlikowske is the Director of National Drug 
Control Policy. Mr. Kerlikowske brings nearly four decades of 
law enforcement and drug policy experience to the position, 
most recently serving 9 years as the Chief of Police for the 
Seattle Police Department. He also served as Deputy Director 
for the U.S. Department of Justice, Office of Community 
Oriented Policing Services.
    Ambassador David Johnson has served as the Assistant 
Secretary for the Bureau of International Narcotics and Law 
Enforcement Affairs at the State Department since October 2007. 
In addition to numerous other distinguished posts within the 
Federal Government, Mr. Johnson served as Afghan Coordinator 
for the United States from May 2002 to July 2003.
    Finally on this panel William Wechsler is the Deputy 
Assistant Secretary of Defense for Counternarcotics and Global 
Threats. In that capacity he leads the Department's 
counternarcotics policies and operations around the world. Mr. 
Wechsler has previously served as Special Advisor to the 
Secretary of the Treasury and on the staff of the National 
Security Council.
    I want to thank each of the witnesses for being here. Your 
service to our Nation is duly noted and appreciated.
    It is the policy of our Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you rise, raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much.
    Let the record reflect that each of the witnesses answered 
in the affirmative.
    As with the gentleman on the first panel, we ask that each 
witness give an oral summary of your testimony. Keep in mind 
that your entire statement will be included in the record of 
the hearing. We ask that you try to keep it to 5 minutes in 
duration.
    Director Kerlikowske, let's begin with you. Thank you.

STATEMENTS OF R. GIL KERLIKOWSKE, DIRECTOR, OFFICE OF NATIONAL 
 DRUG CONTROL POLICY; DAVID T. JOHNSON, ASSISTANT SECRETARY OF 
 STATE, BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT, 
    U.S. STATE DEPARTMENT; AND WILLIAM F. WECHSLER, DEPUTY 
ASSISTANT SECRETARY OF DEFENSE FOR COUNTERNARCOTICS AND GLOBAL 
              THREATS, U.S. DEPARTMENT OF DEFENSE

                STATEMENT OF R. GIL KERLIKOWSKE

    Mr. Kerlikowske. Thank you, Chairman Kucinich and Ranking 
Member Jordan, distinguished members of the committee. I look 
forward to answering all of their questions in just a few 
minutes.
    I am happy to discuss ONDCP's national drug control 
strategy, which, as the chairman knows, was not available at 
our last hearing but has since been released by President Obama 
from the Oval Office. It is a comprehensive drug strategy that 
includes prevention, treatment, domestic enforcement, and 
recognizes the importance of interdiction, cooperation with 
partner nations, to reduce the supply of illicit drugs.
    You have asked us to focus on the international supply 
reduction programs and interdiction, which together constitute, 
as you mentioned, about 40 percent of the annual drug control 
budget. These programs benefit the United States as well as our 
foreign partners in our efforts against drug trafficking 
organizations, reduce the supply of drugs available on American 
streets, while our allies increase their own capacity to resist 
the crime, violence, and corrupting influence of drug 
production and trafficking.
    This partnership to promote the rule of law and strengthen 
democratic institutions while dismantling drug cartels not only 
reduces domestic drug availability; it helps to achieve broader 
national security objectives.
    The international narcotics programs present a tool kit of 
initiatives, and these tools include interdiction, eradication, 
extradition, economic development assistance, institutional 
capacity building, law enforcement, human rights, judicial 
training, and international demand reduction assistance. How 
these tools are used depends in particular on the drug 
challenge, the available resources, the current capabilities, 
and the political will found in respective host nations.
    Where we have a strong and sustained commitment from 
elected leaders, such as in Colombia, the United States' 
support can significantly strengthen the nations' security, 
human rights, and economic environment while reducing drug 
production.
    The globalized illicit drug trade requires collaborative 
solutions. The traffickers do not respect any borders. Both 
Colombia and Mexico have benefited from the brave and decisive 
leaders who insist on bringing traffickers to justice, and are 
gaining full control of their countries. The United States must 
continue to provide direct assistance to these two nations, as 
well as forge other partnerships in the western hemisphere, the 
European Union, the Federation of Russian, and Afghanistan as 
they address their respective drug challenges.
    Multilateral collaboration is another fundamental part of 
our international efforts. I had the opportunity to lead the 
U.S. delegation this year to the United Nation Commission on 
Narcotics, a drug meeting in Vienna, where we presented our 
policies on drugged driving, access to treatment, and achieved 
approval of the U.S.' resolutions on community-based prevention 
and prescription drugs.
    Throughout the year, the U.S. agencies work with these 
international organizations such as the U.N. and OAS to address 
drug trafficking, money laundering, precursor chemical 
division, and to promote institution building, law enforcement, 
and international demand reduction programs. These 
international efforts have resulted in some significant 
accomplishments, and in June I joined U.N. ODC Executive 
Director Antonia Costa and the Russian Director, their Drug 
Czar, Chairman Ivanov, for the release of the United Nations' 
2010 World Drug Report.
    The report highlights the recent significant decline in 
cocaine consumption in the United States. The conclusions of 
this report correspond with the progress reported in multiple 
domestic data sets, such as declining cocaine prevalence found 
in the surveys of youth, adults, and arrestees, as well as law 
enforcement reporting on the drop in purity and the rising 
price per pure gram of cocaine on U.S. streets since 2006.
    It is difficult to prove direct cause and effect, and I 
believe it is noteworthy that multiple U.S. drug indicators 
reflect positive domestic changes concurrently with a 43 
percent decline in cocaine production in Colombia between 2006 
and 2008. Cocaine provides a good example of how our 
international efforts work.
    Nevertheless, we must continually adjust and fine tune our 
mix of programs. In fact, we are doing a performance reporting 
system that Mr. Ford just referred to. We are displeased and 
unhappy with the performance metrics that are out there, and 
the President's drug control strategy has devoted an entire 
chapter to working on improving the domestic measures and also 
improving the quality of the measures internationally.
    I look forward to answering your questions. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Kerlikowske follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.031
    
    [GRAPHIC] [TIFF OMITTED] T5556.032
    
    [GRAPHIC] [TIFF OMITTED] T5556.033
    
    [GRAPHIC] [TIFF OMITTED] T5556.034
    
    [GRAPHIC] [TIFF OMITTED] T5556.035
    
    [GRAPHIC] [TIFF OMITTED] T5556.036
    
    [GRAPHIC] [TIFF OMITTED] T5556.037
    
    [GRAPHIC] [TIFF OMITTED] T5556.038
    
    [GRAPHIC] [TIFF OMITTED] T5556.039
    
    [GRAPHIC] [TIFF OMITTED] T5556.040
    
    [GRAPHIC] [TIFF OMITTED] T5556.041
    
    [GRAPHIC] [TIFF OMITTED] T5556.042
    
    [GRAPHIC] [TIFF OMITTED] T5556.043
    
    [GRAPHIC] [TIFF OMITTED] T5556.044
    
    [GRAPHIC] [TIFF OMITTED] T5556.045
    
    [GRAPHIC] [TIFF OMITTED] T5556.046
    
    [GRAPHIC] [TIFF OMITTED] T5556.047
    
    [GRAPHIC] [TIFF OMITTED] T5556.048
    
    [GRAPHIC] [TIFF OMITTED] T5556.049
    
    [GRAPHIC] [TIFF OMITTED] T5556.050
    
    Mr. Kucinich. Thank you very much.
    Ambassador Johnson, you may proceed.

                 STATEMENT OF DAVID T. JOHNSON

    Ambassador Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Jordan, members of the 
subcommittee, I am grateful for the opportunity today to 
testify about the State Department's foreign assistance 
programs, programs that seek to diminish counternarcotics 
production and trafficking abroad and combat the illicit 
networks with which they are linked.
    Drug trafficking organizations show time and again that 
they have neither decency nor respect for the law, and 
certainly no respect for human life. Cartels and traffickers 
demonstrate every day their only motive is profit. And profit 
they do, often overwhelming or circumventing the capacity of 
government resources to shut them down and corrupting public 
officials who stand in their way.
    This undermines public security, weakens democratic 
principles and institutions, and, if left unchecked, provides a 
fertile breeding ground for the instability that can threaten 
our own national security here at home.
    That is where we at the State Department come in. As the 
Assistant Secretary of State for International Narcotics and 
Law Enforcement Affairs, much of the work that the team I lead 
does involves foreign assistance programs that give our foreign 
partners the tools to isolate and disrupt drug trafficking 
organizations abroad.
    Our programs directly impact and improve foreign government 
capacity, building a platform for joint work between our 
foreign partners and American law enforcement agencies. Our 
primary focus is to improve the criminal justice sectors, 
police, prosecutors, courts, and corrections, of foreign 
governments so that they can confront threats directly on their 
own home turf before those threats can reach our own borders.
    In key drug source countries, State's assistance has 
disrupted drug trafficking operations and organizations in 
Colombia, weaned farmers away from drug crops in Afghanistan, 
and educated and treated populations affected by drugs or drug 
violence throughout Latin America and the Caribbean.
    After more than 10 years of U.S. support for Colombia's 
quest to secure their country, they have begun to self-
administer the counternarcotics eradication and alternative 
development programs that we helped to introduce. In fact, 
Colombia's consolidation plan to nationalize our joint programs 
is well underway.
    Although one of the initial goals of Plan Colombia, 
reducing the actual area of coca cultivation by 50 percent, has 
not been met, current cocaine production potential is 
approximately 295 metric tons, a 58 percent decline from the 
2001 high of 700 tons, a significant achievement. This decline 
reflects not only gains through eradication, but also a 
significantly enhanced interdiction capability, with more than 
280 metric tons of cocaine and character base seized in 2009 by 
Colombian authorities. Most of these drugs would have otherwise 
ended up on the hometown streets of America, or our partners 
and allies.
    Our experiences in Colombia have also informed U.S. support 
initiatives in Mexico, Central America, and the Caribbean, 
where drug supply or transit threatens our own national 
security. We know and have factored this into our strategic 
planning, that criminal justice sector capacity building for 
the host government is the only long-term effective program, 
that the process is long-term and difficult, that political 
will is essential, but that the results can be well worth the 
investment.
    Mr. Chairman, the title for your hearing today is very 
important, ``International Counternarcotics Policies: Do They 
Reduce Domestic Consumption or Advance Other Foreign Policy 
Goals?'' As a diplomat who has spent his life representing our 
Nation's interest abroad, my experience has been that our 
national security objectives and our domestic security 
objectives are always directly linked.
    As Director Kerlikowske has noted, we, the U.S. Government 
and the American people, are already taking some steps on the 
domestic front. State's efforts abroad to build partner 
capacity is one additional piece of the administration's larger 
U.S. drug control policy to reduce the demand for and use of 
illegal drugs.
    Thank you for the opportunity to illustrate the role of the 
Department's foreign assistance programs. I will do my best to 
address any of your questions.
    [The prepared statement of Ambassador Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.051
    
    [GRAPHIC] [TIFF OMITTED] T5556.052
    
    [GRAPHIC] [TIFF OMITTED] T5556.053
    
    [GRAPHIC] [TIFF OMITTED] T5556.054
    
    [GRAPHIC] [TIFF OMITTED] T5556.055
    
    [GRAPHIC] [TIFF OMITTED] T5556.056
    
    [GRAPHIC] [TIFF OMITTED] T5556.057
    
    [GRAPHIC] [TIFF OMITTED] T5556.058
    
    [GRAPHIC] [TIFF OMITTED] T5556.059
    
    [GRAPHIC] [TIFF OMITTED] T5556.060
    
    Mr. Kucinich. Thank you, Ambassador.
    Mr. Wechsler.

                STATEMENT OF WILLIAM F. WECHSLER

    Mr. Wechsler. Thank you very much, Chairman Kucinich, 
Ranking Member Jordan. I appreciate the opportunity to discuss 
the Department of Defense's counternarcotics programs and, in 
particular, the steps we have taken and are taking to improve 
our performance management system, which I know is a strong 
interest of the committee. It is a pleasure to appear before 
you alongside my colleagues.
    International illicit drug trade is a multifaceted national 
security concern for the United States, weakening the rule of 
law and preventing governments from effectively addressing 
other trans-national threats. The global and regional 
terrorists who threaten interests of the United States often 
finance their activities through narcotics trafficking.
    Through its combatant commands, the military departments 
and Defense agencies, the Department of Defense provides unique 
capabilities and expertise in support, and that is critical, we 
are supporting agency on this mission set, in support of 
Federal, State, local, and foreign law enforcement agencies. 
Maintaining force readiness through demand reduction programs 
for the armed services is also a critical component of our 
counternarcotics efforts. Roughly half of our just slightly 
over $1 billion budget for fiscal year 2011 supports 
international efforts, and the other half supports domestic law 
enforcement, demand reduction, and intelligence and technology 
programs.
    These efforts, coordinated through strong leadership of 
Director Kerlikowske and his team, are integrated into the 
Obama administration's wider whole of Government approach that 
has been discussed.
    The narcotics threat has changed dramatically since the 
1980's, when trafficking of cocaine directly into Florida made 
Miami Vice the hit television series. While the narcotic 
mission was not a principal focus of the Department, Congress 
recognized that Department of Defense was uniquely suited to 
conduct aerial and maritime surveillance of illicit drug 
shipments bound for the United States. Department of Defense 
programs primarily implemented by U.S. Southern Command and 
JIATF-South have made tremendous impact on the drug flow 
directly into Florida and the U.S. mainland since then.
    While the counternarcotics mission was once slow to be 
embraced by some Defense policymakers, today the Department is 
widely recognized as a critical component of the national drug 
control strategy, and JIATF-South is viewed as a model for 
inter-agency coordination and regional engagement.
    Drugs, of course, still come into Florida, but the scale 
and challenge of this part of the problem is a shadow of what 
we confronted in the 1980's.
    During the late 1990's, the Department of Defense played a 
vital role in development and implementation of Plan Colombia 
by providing equipment, information sharing, and capacity 
building to the Colombian armed forces. In Colombia, Defense 
counternarcotics programs as part of the whole of government 
integrated strategy led by the Department of State, including 
DEA and US AID, have helped the government of Colombia increase 
its presence throughout the country, reduce level of violence, 
disrupt drug production and trafficking, and dismantle drug 
trafficking organizations. Through these efforts, today 
Colombia is an exporter of security in the region.
    Many challenges, of course, remain in Colombia, beginning 
with the diminished but continuing unacceptable levels of 
cocaine production there, but by any reasonable measures the 
situation in Colombia today is far, far better than that which 
we confronted in the 1990's.
    In Mexico our programs are supporting President Calderon's 
continuing campaign to confront rising violence fueled by drug 
trafficking and other organized crime. Our support to Mexico 
complements the Merida Initiative, led by the State Department, 
and closely coordinated with our inter-agency partners, both at 
post and in Washington.
    Today we are also applying the appropriate lessons learned 
in Colombia and elsewhere to confront heroin production and 
trafficking in Afghanistan. While the Department of Defense has 
traditionally provided counternarcotics support to law 
enforcement missions, in Afghanistan our law enforcement 
partners, such as DEA, are providing critical counternarcotics 
support for our military objectives. This support is critical 
because the drug revenues support the Taliban insurgency and 
undermine the rule of law by fueling corruption.
    While Afghanistan presents unique and complex challenges, 
the interagency cooperation fostered in Colombia is paying 
dividends today in Afghanistan. The revised counternarcotics 
strategy that has been referred to previously for Afghanistan 
emphasizes the whole of government approach to counternarcotics 
mission that is incorporated into our overall counterinsurgency 
strategy.
    Soon after coming into this office last year it became 
clear to me that the Department needed to do a much better job 
as it had before in evaluating the effectiveness of our 
programs. While performance measurements were being collected 
and reported, they were inconsistent, too focused on inputs and 
outputs, not adequately aligned with the national drug control 
strategy, and were rarely used as a basis for budgetary or 
policy decisions. Many of these issues have been highlighted in 
the GAO report released today.
    Recognizing the need to improve these performance 
management systems for the Department's counternarcotics 
efforts, in June 2009, which was 1 month after I arrived, I 
launched a comprehensive review of the system. Based on this 
preliminary assessment, we identified corrective actions, and 
in May I issued new performance measurements procedures for all 
programs my office supports. We are now undergoing a very 
thorough process to further identify and execute those efforts.
    In 2011 and beyond we will incorporate theater-specific 
data for each combatant command to further enhance the 
program's usefulness to leadership and program managers in the 
field.
    I spent the last 8 years before returning to Government 
service as a management consultant. This subject is one that I 
am quite passionate about, and I know that any successful 
performance management system must be useful to the 
implementers, as well as those making decisions from a 
programmatic level, so that they can effectively input the data 
that we are going to need to make the cost effectiveness 
decisions that we have to make.
    Mr. Chairman, this concludes my prepared testimony. Thank 
you again for the opportunity to discuss these issues with you. 
I look forward to addressing any questions that you might have.
    [The prepared statement of Mr. Wechsler follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.061
    
    [GRAPHIC] [TIFF OMITTED] T5556.062
    
    [GRAPHIC] [TIFF OMITTED] T5556.063
    
    [GRAPHIC] [TIFF OMITTED] T5556.064
    
    [GRAPHIC] [TIFF OMITTED] T5556.065
    
    [GRAPHIC] [TIFF OMITTED] T5556.066
    
    [GRAPHIC] [TIFF OMITTED] T5556.067
    
    [GRAPHIC] [TIFF OMITTED] T5556.068
    
    [GRAPHIC] [TIFF OMITTED] T5556.069
    
    [GRAPHIC] [TIFF OMITTED] T5556.070
    
    [GRAPHIC] [TIFF OMITTED] T5556.071
    
    Mr. Kucinich. Thank you very much.
    We are going to have at least two rounds of questions of 
the panel.
    I would like to begin with Mr. Kerlikowske. We are looking 
at what is, without a doubt, a multi-billion-dollar enterprise 
in just about every country where drugs are produced. What kind 
of work do you do, and can you give this committee any insight 
into whether or not there are any banks in this country that 
end up being the repository of massive amounts of drug money, 
or banks through which drug money is being laundered, banks in 
the United States?
    Mr. Kerlikowske. Mr. Chairman, I don't know which banks 
would be involved in money laundering. I do know of a certain--
--
    Mr. Kucinich. Do you look to see if banks are involved?
    Mr. Kerlikowske. I don't look at the banks. I know that 
FINSEN, OFAC, the Treasury Department does. I am very familiar 
with Attorney General Goddard's settlement with Western Union, 
and I am very familiar with the Department of Homeland Security 
work that is being done to not only look for the threat when it 
comes to finances, but also to stop the bulk cash that goes 
south. So I know that there are a lot of Federal law 
enforcement agencies that are looking at that, and certainly 
some State and locals.
    Mr. Kucinich. Do either of the other witnesses have any 
experience or information relating to money being laundered 
through U.S. banks or drug money being deposited in U.S. banks?
    Ambassador Johnson. Mr. Chairman, not in U.S. banks. I 
would use this opportunity, though, to underscore the steps 
that the Mexican government has taken in the last several weeks 
strictly to limit the amount of cash that can be deposited 
there as a way to provide a method for helping to combat the 
leakage into their own system.
    Mr. Kucinich. Mr. Wechsler.
    Mr. Wechsler. Yes, sir. I would greatly encourage you to 
ask the Treasury Department. As someone who used to work at the 
Treasury, we have come a long way since the 1990's when U.S. 
banks--and the Congress was the one who discovered this--U.S. 
banks were actively abetting, in some cases, drug trafficking 
organizations.
    Mr. Kucinich. With all the funny business that has gone on 
in Wall Street, it seems like it is an appropriate time to ask 
that question, and we will contact them.
    Directing staff, we are going to talk to somebody in 
Treasury about following up on those questions.
    Thank you.
    I want to ask, I read your testimony, Ambassador Johnson. 
You said that to ensure a comprehensive and coordinated 
approach to the drug program in Afghanistan, we are currently 
working with our interagency and international partners to 
target narcotics traffickers and drug lords, especially those 
with ties to the insurgency. Are you also looking at those with 
ties to the central government?
    Ambassador Johnson. The Drug Enforcement Administration has 
its largest deployment anywhere abroad, and a very 
comprehensive system to look at all forms of trafficking from 
wherever it is originating, and is working with the Afghan 
authorities, as well as authorities here, to develop cases. 
Those specific cases are something that I am sure that no one 
would address during their development stage, but I will assure 
you that DEA is looking at this without regard to who may be 
involved.
    The concentration on the traffickers who might be involved 
with the insurgency is a step that has been taken in order to 
complement the counterinsurgency strategy of the military, and 
so the targeting, the focus is of necessity there. But in terms 
of case development, it is without regard to person.
    Mr. Kucinich. But if the central government is involved in 
looking the other way or discouraging reduction and demand, it 
is quite possible that you ought to be looking at them, as 
well, isn't that true? You mention insurgents. There is an 
inflection there. I just wanted to see if that inflection 
represented an omission, a correction, or there was a lack of 
inclusion there. I am talking about the central government, 
which has become famous for corruption. I just wondered what 
you are doing.
    Ambassador Johnson. The work has been, I think, of 
necessity focused as much as possible on where the insurgents 
are getting their cash and how they are operating in areas 
where we are seeking to prosecute the war. But to underscore 
again, the efforts that are being undertaken in the law 
enforcement area are without regard to origin.
    Mr. Kucinich. I am going to ask a question of Mr. Wechsler, 
and then I have a whole series of questions to ask you again 
about your testimony.
    Mr. Wechsler, given your involvement here, do you ever see 
any evidence where U.S. resources, particularly those that are 
being used by contractors of the U.S. Government, are involved 
in either the production of or the shipment of narcotics? Have 
you ever looked at whether contractors who are said to be 
working for the United States are actually involved in any drug 
activities that move the drugs out of the countries in which we 
are involved militarily?
    Mr. Wechsler. Sir, I have not seen evidence of any 
contractors that are involved in the drug trafficking problems 
that we encountered in Afghanistan. No, sir.
    Mr. Kucinich. I saw the Secretary of Defense the other day 
made a statement he wasn't even sure how many people he had out 
there in terms of different contractors, so it seems to me it 
would be a fair question, is it not, that if you don't know how 
many people are out there and you have this big drug problem, 
to maybe do some kind of cursory review of what is going on 
with your contractors who may or may not be coming into contact 
with some of these drug supply routes.
    Mr. Wechsler. Yes, sir. I can speak to the ones that I know 
about in my programs, and I can say that I haven't seen that. 
The general question about contractors I know is one that has 
the attention at the very highest levels of the Department of 
Defense, and an awful lot of work is being done because of some 
of the wider concerns that you allude to today.
    Mr. Kucinich. You know, this whole hearing is about what 
are we doing to reduce the amount of drugs that are coming into 
this country and the effectiveness of the programs thereof. 
Since we have a proliferation of contractors, it seems to me 
that there is also potential routes into the country that open 
up through these different contractors. I just thought I would 
share with you that observation.
    Mr. Wechsler. It is a very good point, and the general 
concern about the contractors and, more to the point, their 
subcontractors and their subcontractors is one that is very 
much the attention of the Department. Absolutely.
    Mr. Kucinich. And you are familiar with the Tierney report 
about how we contract out, and the contractors have 
subcontractors who actually end up shooting at our own troops.
    Mr. Wechsler. Yes, sir.
    Mr. Kucinich. So the drug issue comes up in that.
    Mr. Jordan, thank you for your indulgence. Go on.
    Mr. Jordan. Thank you, Mr. Chairman. Again, I think just 
underscoring the need for the right kind of processes and 
structures to be in place so that we can measure all this.
    Thank you all for being with us. Mr. Kerlikowske, thank 
you. I know you have been in front of our committee and 
Judiciary Committee several times, so we appreciate the work 
you do and your willingness to come here.
    The National Drug Control Strategy issued in May of this 
year states that the administration firmly opposes the 
legalization of drugs, obviously a good statement to see, and 
that would include, Mr. Kerlikowske, legalization of marijuana?
    Mr. Kerlikowske. You are correct, Mr. Jordan.
    Mr. Jordan. In light of that, talk to me about what at 
least appears to be somewhat contradictory, the Justice 
Department's decision relative to the law in California with 
respect to marijuana and the National Drug Control Strategy 
issued just 2 months ago, and likely what may happen in here in 
the District relative to the substance of marijuana.
    Mr. Kerlikowske. The two issues are the legalization of 
drugs, including legalization of marijuana, and then the second 
part is the medical marijuana issue. Medical marijuana has been 
in California since 1996. I don't think there is anyone that 
doesn't recognize the explosion in the last several years of 
medical marijuana dispensaries and recommendations that have 
come out.
    The Attorney General, and I believe rightly so, through his 
office issued guidelines to the 15 U.S. attorneys or 16 U.S. 
attorneys that operate within districts that have medical 
marijuana, essentially talking about the finite resources that 
they had, and that if a medical marijuana dispensary was 
operating clearly within the laws of that particular State, 
that the U.S. attorney should consider the use of finite 
resources, whether or not that would be appropriate. It didn't 
prohibit them from doing it.
    The media had an absolute field day with that, and I 
believe that it was incredibly incorrectly interpreted, because 
if you read those guidelines he said that anything that 
involves violence, anything that involves for-profit, anything 
that involves under-age sales, and on and on, that all of the 
resources or resources that those U.S. attorneys and Federal 
law enforcement resources were appropriate. And we do know that 
cases have been made by the U.S. Attorney, and I am aware of 
active investigations that are going on. So that is the medical 
marijuana.
    Drug legalization, marijuana legalization, the 
administration has firmly repeated that it is either a----
    Mr. Jordan. Let me ask you personally, as head of ONDCP, as 
the face of our efforts to curtail and hopefully stop the use 
of drugs in our country, do you think it is appropriate when 
States and/or the District of Columbia--well, let's just say it 
this way: do you agree with the whole medical marijuana 
approach, frankly, as is happening in California right now?
    Mr. Kerlikowske. I would tell you that I think that it is 
very clear that a number of the recommendations, doctors can't 
issue a prescription, the number of recommendations that are 
issued by physicians, and it is only a very small percentage of 
the physicians, are highly questionable. That being said, the 
medical marijuana question should be decided through the same 
process that science uses to decide and the U.S. Government 
uses to decide other----
    Mr. Jordan. I am asking you personally, with your extensive 
experience in law enforcement, the good work I think you are 
doing as the head of this agency, do you personally think these 
type of laws are beneficial to our country or harmful to our 
country?
    Mr. Kerlikowske. I think there is some benefits in further 
exploration of what could be helpful to patients as a result of 
marijuana. I clearly think that this mass amount of media 
attention that has been given to medical marijuana sends the 
wrong message and is inappropriate for young people in this 
country.
    Mr. Jordan. That is good to hear. Do you think when States 
have this medical marijuana statute in place that it makes it 
easier for--it is the first step toward legalization? Would you 
agree with that?
    Mr. Kerlikowske. I would tell you that I think that I have 
heard a number of statements from people that are in the pro-
legalization business that medical marijuana issues were a 
gateway. I still think that there are also, though, some 
benefits that need to be further explored and further refined 
for people that could use marijuana in a medicinal way.
    Mr. Jordan. OK.
    Mr. Chairman, I have another line of questioning, but I 
will wait until the next round. You are going to do another 
round?
    Mr. Kucinich. Yes.
    First of all I want to say that we have been joined by Mr. 
Tierney, whose report I cited just before he came into the 
committee room. We appreciate your presence here. Thank you, 
sir.
    Congress has provided over $6 billion to the Department of 
Defense counternarcotics program since 2005. GAO report said 
since 2006 cocaine removal rates from interdiction have 
declined and not reached any of the annual targets to date. The 
2010 ONDCP strategy calls for the removal of 40 percent of the 
cocaine moving through the transit zone annually by 2015.
    Mr. Wechsler, is this goal realistic? How much money will 
we have to spend to get to that percentage? And what outcomes 
do you expect as a result of these efforts?
    Mr. Wechsler. Yes, sir. The goal is realistic if we have 
the resources, and additional resources will be required to 
meet that higher goal. I think it is important to set goals 
that are not easily achievable but that actually push the 
agencies to do the best that they can.
    We are going through a process right now to figure out 
exactly what combination of additional assets and additional 
programs might be required to hit that goal, and that is where 
we are in that process.
    Mr. Kucinich. Is it cost effective? I mean, are you looking 
at the cost effectiveness of this?
    Mr. Wechsler. The answer is yes, and----
    Mr. Kucinich. It is cost effective now?
    Mr. Wechsler. The answer is yes that we are looking at that 
problem. Before you get to cost effectiveness you have to get 
to effectiveness in the first point, and that is--when we 
looked at the 285 different metrics that had been left to us by 
the last administration, we have been reviewing them for a 
whole variety of characteristics, and what we found is that 
some of them are applicable and some of them are not applicable 
for basic level effectiveness.
    To get to cost effectiveness, then you have to look at that 
in the context of the budget process, which you run every year.
    To be quite honest, we are not there yet, but we have a 
very, very thorough process to get us there in a way that won't 
just simply answer your question quickly but easily and then 
you will be asking the same question 2 years from now when 
someone else is sitting in this seat.
    Mr. Kucinich. You understand the importance of this, 
though, because Congress now, we are looking very seriously at 
theses questions. You don't just throw money at a problem.
    Mr. Wechsler. The challenges that you face with the budget 
are very, very well understood. I believe that one of my 
primary goals is a steward of U.S. taxpayer dollars on your 
behalf, and I want to make sure that the programs that we run 
are not only effective but are also cost effective.
    A great amount of things that we do are effective. I would 
need to find out, and some of them that I have seen I can 
conclude are cost effective, but I am still doing additional 
work.
    Mr. Kucinich. We will go deeper into this.
    I want to go to Ambassador Johnson just for a minute here.
    You cited recent declines in production of cocaine in 
Colombia, but isn't it true that, despite fluctuations, coca 
production has been remarkably steady since before Plan 
Colombia even began? So after spending over $4 billion on these 
efforts, illicit crop reduction is, at best, slightly lower 
than it was before we started pouring money into the country's 
counternarcotics efforts? It doesn't seem to me to be a good 
use of taxpayers' dollars. And isn't it true that the 
production has increased in Peru and Bolivia to offset any 
gains made in Colombia? So why is eradication still being 
funded at such high levels, Ambassador?
    Ambassador Johnson. The statement that you made about 
changes in Peru and in Bolivia are regrettably true. There have 
been some sustained----
    Mr. Kucinich. I like the way you put that. I mean, that was 
very artfully done. I just want to state that was artfully 
done.
    Ambassador Johnson. Thank you, sir.
    Mr. Kucinich. Please continue.
    Ambassador Johnson. There have been some sustained gains in 
Peru, based on programs that work very clearly and very much in 
a teamwork effort between the eradication efforts that we 
provide support for, as well as the alternative development and 
governance building efforts that AID, through the 
appropriations that it is provided, works with.
    I think the change in Colombia is reflected over the time 
that you cite. There was a continued growth in area under 
cultivation and cocaine production for a substantial time after 
Plan Colombia was begun, and that corner was not turned for 
several years afterwards. But, as your previous witness has 
stated, there is a substantial decline measured over the course 
of the last several years in the amount of cocaine that is 
available from that production and the amount that is actually 
grown in Colombia.
    Bolivia is a much more challenging situation. We have a 
program there where we have worked with the government there to 
address an eradication of a gross amount, but, due to changes 
on the ground there, including the attitude of the government 
toward coca production, the area under cultivation, in fact, 
grows in the neighborhood of 10 to 12 percent per annum over 
the course of the last several years.
    Mr. Kucinich. Thank you, Ambassador.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Kerlikowske, when Mr. Ford was in front of the 
committee a few minutes ago I talked to him about whether the 
GAO had done any assessment of how effective your treatment 
programs the Federal Government is involved with. Can you 
elaborate and maybe tell us what the GAO has not looked at, 
your assessments of how you are doing on the treatment side?
    Mr. Kerlikowske. I think that I share your concerns, and 
certainly the Chair's concerns, over the lack of the timely, 
relevant data. When I was police chief and made decisions for 
2,000 people with a several hundred million dollar budget, I 
actually had a lot more data and a lot more timely data to do 
that than I have seen here.
    Mr. Jordan. Yes.
    Mr. Kerlikowske. That is why the national drug control 
strategy has devoted an entire chapter to improving the quality 
of the data.
    There are two things that make the assessment of the 
treatment programs difficult. One, there is a whole plethora of 
treatment programs that are out there. Many of the treatment 
programs report their results in very different ways, as far as 
recidivism within a month, recidivism within a year, and the 
fact that actually in treatment part of treatment is, in fact, 
that people relapse.
    The other problem is that State and local communities often 
do, either through in-kind services or their own local tax 
dollars, an awful lot of treatment that we don't have control 
over.
    It is interesting that in Mexico right now they are working 
very hard to consolidate how treatment is done and how it is 
measured, because they are seeing a growing addiction 
population in that country.
    Mr. Jordan. Sure.
    Mr. Kerlikowske. We could benefit here in the United States 
from doing the same.
    Mr. Jordan. The folks you contract with or the folks who 
provide the treatment, what percentage are faith-based groups 
or entities who are doing that work?
    Mr. Kerlikowske. An awful lot of the treatment is paid for, 
as you know, from the HHS block grant that flows to the States.
    Mr. Jordan. Yes.
    Mr. Kerlikowske. I do not know the percentage of faith-
based, but it would tell you that the most recent meta 
analysis, for instance, on prevention talks about that if there 
are trusted messengers giving young people information--and I 
am talking in the prevention area here--that would include 
faith-based, that can have a positive effect on young people.
    Mr. Jordan. But you don't have any measure to say if faith-
based approaches are working better or worse or more 
successful, less successful, than non-faith-based approach?
    Mr. Kerlikowske. I don't know.
    Mr. Jordan. That would certainly be something I would like 
to follow.
    Let me just ask you, along those lines there is the 
Substance Abuse Mental Health Services Administration 
Modernization Act. I would like to get your thoughts on a 
provision contained within that act. This is sponsored by 
Representative Green and Representative Kennedy.
    Let me just read a quick paragraph if I could, Mr. 
Chairman.
    Again, this is to Mr. Kerlikowske: ``With respect to any 
activity to be funded in whole or part through an award, a 
grant, a cooperative agreement, or contract under this title or 
any other statutory authority of the administration, the 
administrator, the director of the center involved may not make 
such an award unless the applicant agrees to refrain from 
considering religion or any profession of faith when making an 
employment decision regarding an individual who is or will be 
assigned to carry out the portion of the activity.''
    Do you think we need to place that kind of limitation on 
some of these faith-based groups who are doing the work of 
helping treat people with drug problems, this kind of 
limitation on a faith-based organization? It seems to me what 
is going to happen is if you place this kind of limitation on 
those they will say we just can't do the work any longer, we 
just can't apply because that violates their statement of 
faith.
    Mr. Kerlikowske. I would not want to see that, in 
particular, but what I would like to support is certainly on 
the hiring decisions that you are not going to discriminate 
against people coming into those programs based upon the 
religion, but I think that the faith-based programs can have 
beneficial effect, and I would be happy to followup with you 
and with SAMHSA on this.
    Mr. Jordan. I would like to be a little clearer, because it 
seems to me that what you just said is contradictory, because 
you said you want the faith-based groups to continue to do the 
work, but if they can't hire the people who support their 
statement of faith how are they going to continue to do the 
work? That is my point. It seems to me this act is going to 
undermine the ability of the faith-based organizations, which 
you have said are doing some of this treatment and doing a good 
job at it. If we make this change, we are going to keep them 
from being able to do this kind of work.
    Mr. Kerlikowske. And I am not sure that I agree, Mr. 
Jordan, because I think if the bar is not to discriminate 
against somebody coming in, but yet not to prohibit the 
practice and the way that the organization does the treatment, 
I'm not sure they are mutually exclusive.
    Mr. Jordan. I think what we have to focus on is what is 
going to help the individual with the drug problem. That is 
what this whole thing is about today. That is what this hearing 
is about. That should be our focus. And if these groups are 
working, I don't think we need to be making this change.
    Mr. Kerlikowske. We will followup with that.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes Mr. Tierney.
    Mr. Tierney. Thank you.
    It is good to see you again, Mr. Kerlikowske, and others. I 
thank you.
    This is all about the money, right? I mean, that is what 
people are in this business for. Or does anybody have another 
suggestion? It is all about the money. We can treat people all 
day long, but as long as there is money involved they are going 
to keep pushing this thing around and find other people to deal 
with.
    We can interdict it, and they are going to just find a 
different route to take it to market. We can sort of try to 
eradicate. They are just going to find another place to grow 
it.
    So how do we go about getting the money? The first thing, 
corruption, obviously. If we are talking about a place like 
Afghanistan, you go after the corruption. You arrest the guys, 
including the brother or step-brother or whoever it might be in 
the chain there and show that you are serious about it, and you 
take them out of the loop and maybe get some progress there. We 
can talk about that in any country where it is there, but even 
that is going to be difficult unless you go to get the money. 
So how do we do that? What are our efforts so far in that 
regard? How successful have they been or not been? What aren't 
we doing that we should be doing, because until we take the 
money out of this I think we are behind the eight ball.
    If I could just go left to right on that.
    Mr. Kerlikowske. I think that the money is absolutely 
critical, and I have been extremely impressed with the work 
that I have seen lately from FINSEN, from the Department of 
Treasury, from the Department of Homeland Security, also some 
of the State and local efforts. The recent settlement that 
Attorney General Goddard had with Western Union includes 
additional law enforcement training in how to detect the money 
issue for local law enforcement.
    Quite often we think that it is going to be a Federal law 
enforcement agency that is going to go after the money. What we 
really need to do is to bring a whole other group of resources 
into that fight, and that is the deputy sheriffs and the State 
and local law enforcement who may not have either the tools or 
the training to go after the money. We are actually seeing 
these kinds of training initiatives increase.
    Along with that, the Department of Homeland Security 
license plate reader system, they can perhaps detect the 
suspect vehicles that may be going south with the bulk cash. A 
number of both back scatter x-ray systems and also x-ray vans 
that Customs on the south side of the border, Mexican Customs 
can use. As you know, it was not that common in the past for 
cars, once they had entered Mexico, to be searched by the 
government of Mexico Customs. That is changing pretty 
dramatically also.
    I think also making the going after the money sexy is 
particularly important. We often spread out the drugs and see 
the perpetrators when it comes to seizures and weapons. We 
don't often spread out the money on the table and then make 
sure that people see what is going on.
    I am sure Mr. Wechsler and Ambassador Johnson can tell you 
about some great work that has been done at interdicting bulk 
cash outside our borders.
    Mr. Tierney. Ambassador.
    Ambassador Johnson. Congressman, I think virtually every 
program that we have has some element in it that is dedicated 
exclusively to chasing cash for its own sake, but I think they 
also have to be looked at as a combined effort. There is not a 
single solution to this.
    Mr. Tierney. I am going to interrupt you if I can, 
Ambassador, because just a moment ago Mr. Kerlikowske told me 
that we are under-resourced in those avenues of looking at the 
cash and looking for the money. So I guess with the real 
paucity of success that we have on interdiction, for instance, 
where all it does is move it from one place to another, why 
aren't we considering moving some of the resources from there 
to a place where we know it will have more affect?
    Ambassador Johnson. What I was saying was we do have 
resources dedicated to this, but the resources to chasing the 
money sometimes don't appear directly there. We have resources 
that are dedicated to these devices and the training for the 
Mexicans so that they can detect the bulk cash. We have 
resources that are dedicated to training individuals in places 
all over the world to inspecting and knowing how to detect 
individuals who may be leaving through airports with 
substantial amounts of cash with them.
    But there is also an element of, for example, the program 
in Colombia that has to do with reforming the judicial system 
that allows them to detect people, to prosecute them, who have 
been smuggling cash and engaging in money laundering.
    So these elements, when taken together, I think form a 
whole. The exact proportion that might be spent more on non-
intrusive inspection devices, for example, as opposed to ships 
at sea, I think that is worthy of some consideration, but it is 
a multi-variable calculation you are trying to make here.
    Mr. Tierney. I guess it is, except that we have had years 
and years and years of experience of not doing very well with 
interdiction and with eradication. We have shown that we are 
just bounding the ball back and forth, whacking it off the 
wall. It seems to me that the one area we know these guys are 
interested in and they have to have it is cash and money, and 
they have to launder it, and we are talking banks and 
everything else. Why don't we just focus there like a laser 
beam and make this unprofitable for them and the other stuff 
will take care of itself if you do that?
    Mr. Wechsler.
    Mr. Wechsler. Yes, sir. Of course, the way the Department 
of Defense works is primarily focuses on this issue in the war 
zone, and you are exactly right. We have done a tremendous 
amount of work in the last year on this subject at a strategic 
level, at an operational level, and at a tactical level, and 
what we are doing today is tremendously different than where we 
were 18 months ago.
    We built out the Afghan threat finance cell in Kabul, we 
are building out tactical level elements in Kandahar to work at 
this exact issue and the nexus of the money and the drugs and 
the insurgency in a coordinated, interagency approach so we can 
bring the military authorities where they are appropriate, but 
also bring together the law enforcement authorities and the 
Treasury Department's authorities where those are the 
appropriate tools to take against a given target.
    We have a long way to go on this area, but we have had some 
significant successes recently, and the level of progress is 
one that I am very proud of.
    Mr. Tierney. If I might, Mr. Chairman, for just 1 second, I 
get a little concerned when I see stories in the Wall Street 
Journal about $3 billion being put in cash on a plane and taken 
out of there. I know some of that is the war lord stuff that we 
investigated, and that is lining pockets and going out, but I 
am concerned that a lot of it is drug cash getting out of 
there, so we have a long, long way to go on that.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I want to say again that what Chairman 
Tierney did with his report was extremely important. I hope 
that all of you will have a chance, if you haven't already, to 
study it thoroughly, because when we consider how those people 
we are trying to work with are actually using U.S. resources to 
further their own avarice and to try to convert our resources 
into their own, and the potential of moving drug money out of 
the country, and we brought up before you came, Mr. Tierney, 
the issue of banks. We are going to get Treasury engaged in 
that. Maybe we can do that jointly.
    I think that the points that he is making are absolutely 
critical. The underlying dynamics that are driving so much of 
this is the tremendous amounts of money that people are making, 
billions of dollars.
    And it becomes even more perplexing when you understand 
that we have brave men and women whose lives are on the line in 
some of these countries who are totally dedicated to this 
country, and somebody, some groups, are making billions of 
dollars off of their presence there. There is something 
fundamentally wrong.
    You gentlemen are each charged with a grave responsibility 
to try to bring some alignment in these policies.
    I am just going to go to a final round of questions, and we 
will try to move through this as quickly as possible. I want to 
thank you for your indulgence and your time.
    I want to ask all the witnesses if you think labeling 
international state-building programs like alternative 
livelihood programs, rule of law initiatives, and justice 
reform as counternarcotics policies, if it makes sense. Mr. 
Kerlikowske? Let's go right down the line.
    Mr. Kerlikowske. Right now we are in the process of 
reviewing the budgeting accounting system that we are using for 
drugs. I think, as you know, from the NAPA Report there was 
concern about how things were being accounted. We want to 
review this, and we are doing it. It will be done in the most 
transparent way possible.
    Mr. Kucinich. Can you answer the question, though? What 
about labeling these international state-building programs?
    Mr. Kerlikowske. I think there should be some portion of 
them that clearly do work for counternarcotics, and I would 
think that there are some in the domestic area that also could 
be in a counternarcotics mode also.
    Mr. Kucinich. I want to go down the line, and then I have a 
followup question to ask each of you. Go ahead.
    Ambassador Johnson. I agree with the Director. Some portion 
of them should be. I think to label them 100 percent would be 
misleading. Cost accounting is hard, I know, but I think that 
in some cases alternative livelihood is an essential part of a 
program, for example, in Peru and in Afghanistan. In some areas 
those programs----
    Mr. Kucinich. I want to stop you for a second because you 
just said something about it, you know, potential for being 
misleading, because what I was wondering is whether or not 
there is a risk that labeling these programs as 
counternarcotics results in misguided policies because they are 
being judged based on how drug supplies diminished instead of 
improvements in good governments or socio-economic development.
    Ambassador Johnson. I think that a durable, effective, 
long-term program will have to have some element, perhaps a 
significant element, particularly on the rule of law side. We 
have had, from my point of view, a successful eradication 
program in Colombia, but that program will be durable over time 
to the extent that the Colombian authorities, with our support, 
are able to extend the reach of the State and provide State 
services, particularly security services and rule of law in 
areas that are ungoverned or poorly governed.
    Mr. Kucinich. Mr. Wechsler.
    Mr. Wechsler. I will defer to my colleagues who run the 
programs for the accounting, but what I can say is what we have 
recognized is that we cannot succeed in our counternarcotics 
objectives based purely on the military approach to this and we 
need the alternative development efforts to be part of this 
integrated plan for our counternarcotics lines of operations to 
succeed as part of our wider counterinsurgency programs.
    Mr. Kucinich. So then what is the significance, Ambassador 
Johnson, of labeling these state-building programs as 
counternarcotics as opposed to just focusing on rule of law 
initiatives, justice reform? Why are they put into that ambit 
of counternarcotics?
    Ambassador Johnson. Well, part of them have a positive 
counternarcotics effect. I am not sure what you are meaning by 
put in the label of counternarcotics. The appropriation that we 
receive is international narcotics and law enforcement, and 
there are programs which go beyond counternarcotics for which I 
am responsible.
    Mr. Kucinich. You make a good point, which is something 
that this subcommittee should take note of, and that is that if 
our legislative and appropriation process guides those 
definitions, that also can drive a combining of programs or an 
overlap of programs. I thank you for making that point. That is 
a good point.
    Director Kerlikowske, ONDCP cites the U.S. role in taking 
out some of the major drug cartel leaders in Mexico as a sign 
of the effectiveness of the U.S.'s participation in Mexico's 
war on drugs. Would you comment on the collateral consequences 
of taking out these cartel leaders, such as the destabilizing 
of the industry and creating a power vacuum, and does that 
cause more violence?
    Mr. Kerlikowske. I think that it does cause more violence 
when the heads of some of these organizations are taken out. 
The anecdotal information is that the people that replace 
them--and there are always people that will replace them--are 
not as sophisticated--probably a bad term there, but not as 
sophisticated as perhaps the more entrenched leadership, and 
that they, in fact, may be more reckless. I think that 
experience is true in what we have seen, whether it was in 
northern Ireland or here with our own organized crime.
    Mr. Kucinich. Let me just ask one final question. How 
endangered is the government of Mexico, itself, from these 
cartels? I mean, do these cartels have the power to capsize the 
government of Mexico?
    Mr. Kerlikowske. I do not think so.
    Mr. Kucinich. Ambassador Johnson.
    Ambassador Johnson. No.
    Mr. Kucinich. Mr. Wechsler.
    Mr. Wechsler. No.
    Mr. Kucinich. OK. Mr. Jordan, a final round of questions.
    Mr. Jordan. Thank you, Mr. Chairman. Just one question. 
This will be for Ambassador Johnson, if we could.
    In your testimony you talk about the experience in Bolivia 
where they expelled last year all DEA personnel, and yet in the 
final sentence in that same paragraph you say, We will provide 
$20 million in logistics and training support to Bolivia this 
year. They kicked all our guys out, and yet we are still giving 
them money. It is sort of the old line why pay people who don't 
like you, they will probably not like us for free. Why are we 
doing that when obviously they said take a hike, and yet we are 
still sending taxpayer dollars to the tune of $20 million?
    Ambassador Johnson. Two points. We are not giving the 
government of Bolivia any money.
    Mr. Jordan. OK.
    Ambassador Johnson. We are providing a service in 
cooperation with them to eradicate a substantial amount of 
standing coca, which is a program that we have operated there 
over several decades.
    I think that you raise a legitimate question as to whether 
this program, in the face of the absence of political will on 
the part of the Bolivian authorities clearly to combat these 
narcotics, is viable in the long term. I think that it is 
having the intended effect of eliminating a substantial portion 
of the crop.
    Mr. Jordan. Tell me how the money is being spent. If they 
kicked out our personnel and yet we are still spending $20 
million there, who do we have there? Tell me how it is working.
    Ambassador Johnson. We have a team of people who work with 
the Bolivians, provide them with support for aviation, 
logistical support for moving around their country for the 
destruction of standing crop, as well as interdiction 
operations. What is missing with the departure of the DEA is an 
ability to really point those interdiction operations based on 
solid intelligence.
    Mr. Jordan. Yes. I mean, the folks who are there on the 
ground are the ones handing out the money----
    Ambassador Johnson. Excuse me. Nobody is handing out any 
money.
    Mr. Jordan. Not handing out the money, but spending the 
money, helping them, and the people who could enforce kind of 
the tough love part of it, they are going, No, we don't want 
those around. We just want the help part; we don't want the 
people around who are actually seeing if we are doing things in 
the right way.
    Ambassador Johnson. I don't know the variety of 
motivations, but I think what is clear is that the program is 
working effectively as described, but it does not have the 
ability to work with a solid, intelligence-led interdiction 
effort in the absence of the DEA.
    Mr. Jordan. I would agree with that.
    All right. Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you very much, Mr. Jordan.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    Mr. Kerlikowske, I first want to thank you for your written 
responses following the hearing that we had back in March. We 
sent some written questions to you, and I want to appreciate 
the time and effort that you put in to answering them.
    But some of what we explored in those were whether or not 
there was adequate data to make some of the determinations as 
to how to distinguish between what attempts are more successful 
than others in dealing with this issue. Part of your response 
indicated some $42 million, or $42.6 million of the President's 
budget to help collect the data. I am wondering if that is 
money well spent, given all the other studies that you cite 
from Rand and others that had very serious limitations in their 
usefulness.
    Mr. Kerlikowske. I think it is unbelievably well spent when 
we talk about the multi millions in the Federal drug budget. I 
am extremely disappointed to be having to cite 2006 or even 
2007 data about who has died as a result of drugs, and then I 
tell you that this is the most recent data set available. 
Unfortunately, that is the case.
    So, working with CDC, working with HHS to find out who is 
coming in to jail and what drug are they under the influence 
of, who is being admitted to an emergency department at a 
hospital and what kind of drug are they under the influence of, 
coroners' reports, all of those kinds of things are 
particularly helpful.
    I truly believe that as we continue to focus an awful lot 
on marijuana and youth use, and appropriately so, over a number 
of years, we have this kind of skyrocketing number of people 
dying from prescription drugs that was just kind of out there. 
Greater numbers than from gunshot wounds. In 16 States greater 
numbers than from car crashes. It is kind of the 800-pound 
gorilla that nobody was actually recognizing. So I think the 
data improvement is very important.
    Mr. Tierney. Thank you.
    Mr. Wechsler, with respect to Afghanistan and the drug 
trade there, whatever, has the President made any designations 
under the Foreign Narcotics King Pin Designation Act of Afghan 
citizens?
    Mr. Wechsler. There have been designations, yes. I am going 
to have to defer you to the State Department and the Treasury 
Department, who run the various designation processes about how 
many there are and the various names.
    Mr. Tierney. Wouldn't you think that you would know that, 
though? If you are seriously involved in that area, wouldn't 
that be one of the things that you would want to be following 
up on so that you know?
    Mr. Wechsler. We absolutely do. We coordinate on every 
single name and are encouraging this process to do these 
designations. Again, against any individual target that you are 
talking about, we want to go through a process to figure out is 
the Treasury or the State authorities the right one to use. 
Should we use a law enforcement approach to go after this 
individual target? Or in some cases do we want to use a 
military kinetic approach to go after that given target in 
Afghanistan, or a combination of them. Those are the efforts 
that are being made in the field on every note of the various 
networks that we have, the mapping in each individual case.
    But there will be a different answer in each case about 
what the appropriate approach is.
    Mr. Tierney. Which I guess is why I thought that you would 
have had the information, as well, because if you are 
coordinating this then I would think every one of you knows who 
these people are that you are going after and take every 
opportunity to go after them.
    Mr. Wechsler. Oh, yes.
    Mr. Tierney. Assuming there are a limited number of people 
here that we are talking about, and probably few institutions 
because the banks aren't that prevalent. You are talking about 
other informal processes, right?
    Mr. Wechsler. The networks are not inextensive that we are 
talking about and there is no shortage of targets that we are 
going after. When it gets to the institutions, then you are 
correct, then there is a relatively small number. But when you 
are talking about individuals and organizations, unfortunately 
we don't lack for targets.
    Mr. Tierney. Ambassador, the last time we went around I got 
the feeling I sort of cut you off. Is there something that you 
wanted to add to your last comment?
    Ambassador Johnson. Only that the idea of going after the 
money is something we have been focused on for a very long time 
and have had extensive programs to address it, but it is also 
something where the adversary is extremely creative, and as we 
develop tools they develop ways to work around them. So the 
comprehensive effort that Mr. Wechsler described about how we 
are seeking to use new tools on the battlefield is something 
that we are working on every single day.
    I may be the most aged person here, but when I was a bank 
examiner back in the 1970's we were working on this same 
problem with people buying expensive automobiles and then 
turning them in 15 minutes later to launder money. So it is an 
effort that goes on over time, and I think one of the key 
elements of the work that we do, particularly in Latin America, 
is on money laundering and civil asset forfeiture, which is the 
way to take away the proceeds of crime.
    Mr. Tierney. Thank you. Again, I apologize if I did cut you 
off before.
    So I am looking at this thing and I am thinking about choke 
points. We have a lot of money spread out in a little of 
different avenues from interdiction to eradication to hitting 
the demand side, to going after the money, to going after the 
precursors, all of that.
    Is there any merit to the concept of picking one or two 
areas that we really think are the choke point in that and 
consolidating all of our attention and resources on those 
avenues and just really leaning hard and trying to get some 
international consensus on that as well as some interagency 
consensus and just going full bore at that one or two areas 
that we think have the most effect of shutting these people 
down?
    I think we already know it is not eradication, it is 
already not interdiction, but maybe look at some of the 
remaining ones and say this is what we are just going to double 
down and put all of our resources into this and set a period of 
years that we think we should see some effect from it and just 
do it.
    Mr. Kerlikowske. Mr. Tierney, I think if we knew what 
worked that would probably be certainly the most helpful way. 
The sad fact is we don't actually know what works.
    I would tell you that I think the President's strategy, 
this very comprehensive strategy, is the best way to go, and I 
would cite the most recent example when President Obama and 
President Medvedev last year and we started a bi-national on 
narcotics. It was only to look at drug traffickers and drug 
trafficking.
    It became very clear, both to the Federation of Russian and 
to the United States, that was a narrow way to look at the drug 
problem, particularly Russia's drug problem with 2\1/2\ million 
heroin addicts, and it would have to be to look at prevention, 
it would have to be to look at what type of drug treatment 
systems are available to get these people back into the work 
force, and it would have to be to go after the money, the 
financiers, the traffickers, etc.
    I think that balanced approach is probably the one that we 
have to put all our eggs spread across the spectrum rather than 
into the two or three things that we might think work.
    Mr. Tierney. Interesting, because I think, again, I think 
we know what doesn't work, yet we keep doing it. The definition 
of insanity, I guess. It is part of it. It is not just this 
President, it is all the Presidents. It is all of us that have 
done this. We continue to think that we are just going to keep 
throwing stuff at the wall and see what sticks here.
    If we can't figure out what definitely works, if we can't 
get the data behind it to say this works, we are going to do 
it, we certainly can get the data behind what doesn't work and 
say, Well, we have been trying this for a few decades now, that 
certainly hasn't done it, because we have great enforcement 
agents and other people out there just beating their heads 
against the wall.
    I know if you say to them we are going to stop doing one 
thing or the other they are going to be upset because every day 
they see results, but that is the point. Every day they see 
results because there is an endless group of people that will 
be doing that forever. You can just keep repeating it over and 
over and over again instead of finding the angle that finally 
shuts down the operation.
    I am out of time. Thank you.
    Mr. Kucinich. Thank you very much, Mr. Tierney.
    We are going to move on to the third panel in a moment. I 
just want to thank each one of you for your service, for the 
work that you do.
    Mr. Tierney, as he often does, raised the question that 
requires some deeper level of analysis, and it seems that every 
time we hold these hearings--and this is the responsibility of 
this subcommittee, oversight over the Office of National Drug 
Control Policy. We are required to really ask some deeper 
questions about why, what drives this seemingly insatiable 
demand for drugs in our culture. That is beyond the scope of 
this particular hearing, but it sure is something that we need 
to have a national discussion about.
    For all that you do that works and doesn't work, we can 
continue to go over this from now until kingdom come about what 
works, what doesn't work, but we are missing the deeper 
question. What is it in our culture that drives this tremendous 
demand for these various types of drugs?
    I don't know the answer to that, but it is sure something 
that we need to get into, because otherwise all we are doing is 
shuffling policy this way, that way, and you still have this 
tremendous demand and supply that is readily available where 
people who are selling it are ready to risk life, limb to make 
billions of dollars.
    Thank you for your service to the country. We will move on 
to the third panel, which I will introduce while the staff 
proceeds with the changing of the table there.
    Our third panel includes Adam Isacson, senior associate for 
regional security at the Washington Office of Latin America. He 
joined the Washington Office of Latin America in 2010 after 14 
years working on Latin American and Caribbean security issues 
with the Center for International Policy.
    Vanda Felbab-Brown is a foreign policy fellow at the 
Brookings Institution. She focuses on the national security 
implications of illicit economies and strategies for managing 
them. She is an adjunct professor in the securities studies 
program at Georgetown University School of Foreign Service.
    And Mark Kleiman is professor of public policy in the UCLA 
School of Public Affairs. Professor Kleiman is a renowned 
expert on drug policy, teaches courses on methods of policy 
analysis, on drug abuse, and crime control policy.
    As with those on the first and second panel, we ask that 
each witness give an oral summary of his or her testimony. Keep 
the summary 5 minutes in duration. Your complete written 
statement is going to be included in the hearing record.
    It is customary for all witnesses before our full committee 
and subcommittee to be sworn. I would ask that you raise your 
right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much.
    Let the record reflect that each of the witnesses has 
answered in the affirmative.
    You may proceed with your testimony, Mr. Isacson. Please 
begin.

   STATEMENTS OF ADAM ISACSON, SENIOR ASSOCIATE FOR REGIONAL 
  SECURITY, WASHINGTON OFFICE ON LATIN AMERICA; VANDA FELBAB-
BROWN, PH.D., FOREIGN POLICY FELLOW, THE BROOKINGS INSTITUTION; 
AND MARK KLEIMAN, M.P.P. AND PH.D., PROFESSOR OF PUBLIC POLICY, 
                 UCLA SCHOOL OF PUBLIC AFFAIRS

                   STATEMENT OF ADAM ISACSON

    Mr. Isacson. Chairman Kucinich, Ranking Member Jordan, Mr. 
Tierney, I want to say a big thank you for inviting me to 
participate in this hearing that I think is badly needed, and I 
congratulate you for holding it. I look forward to a good 
discussion.
    A big part of my work at the Washington Office on Latin 
America is monitoring U.S. aid to that part of the world, and 
where Latin America is concerned U.S. aid really does mean 
counter-drug aid.
    In the 10-years between 2000 and 2009, 48 percent of our 
aid dollars spent in Latin America, $9.9 billion, went through 
counternarcotics accounts in the State and Defense Departments 
budgets. When you look only at the military and police aid that 
went to the whole region, 85 percent is counter-drug aid.
    So for all that have we managed to reduce drug supplies? I 
am afraid the answer is no. Look at cocaine, which is the only 
illegal drug produced entirely in Latin America, and by every 
measure, the tons produced, the price on U.S. streets, drug-
related violence, these 10 years of aid did not reduce cocaine 
supplies. My written testimony provides the numbers comparing 
2000 and 2009.
    So where do we go from here? In fact, the experience of the 
past 10 years in Colombia and Mexico and elsewhere offers some 
compelling lessons. The first is that we have to do far more to 
reduce our own citizens' demand for illegal drugs. The new 
national drug control strategy puts a greater priority on drug 
treatment, which is welcome, and let's hope it translates into 
greater resources in the next several years' budgets. Also, 
community corrections programs like Hawaii's HOPE probation 
program, deserve more support.
    In Latin America, meanwhile, the lessons really are 
pointing in two directions, broad directions: strengthening 
states and reducing impunity. While that sounds a bit like 
academic jargon, they deserve to be unpacked a bit.
    First, strengthening states. Counternarcotics programs 
don't prosper in a vacuum of government. Whether that vacuum 
could be a wild jungle coca growing region or it could be a 
gang-ridden slum in a Latin American city, drug trafficking 
will thrive there if there is no state presence.
    Note I say state presence, not military occupation. Of 
course, I mean, you can't set up big economic aid programs 
without security of forces there to protect them, but military 
operations also fail when the civilian part of the government 
doesn't show up, I mean the part that provides public goods 
beyond just security--property rights, equal protection under 
law, farm-to-market roads, health, education, clean water, a 
stable financial system.
    Second, impunity. Establishing a government presence, even 
a civilian government presence, isn't enough if it doesn't 
include a strong, credible judicial system alongside it. If a 
government is in a zone but it is acting abusively or corruptly 
toward its own people and it does so without fear of 
punishment, then that population is not going to support its 
government. State presence can actually make matters worse 
without a judiciary in place to ensure nobody is above the law.
    Now, when the United States provides judicial aid, which we 
do, it has to include more for physical security, for judges, 
prosecutors, investigators, and witnesses. It has to help 
increase manpower, to reduce caseloads, and the investigators 
in these countries need technology, data bases, data security, 
crime labs, DNA, forensics.
    This sort of strengthening states without impunity 
framework may be the best approach, but the thing is there is 
little specifically counternarcotics about it. Put plainly, it 
is nation building. Programs like consolidation or integrated 
action in Colombia, which has been going on the last couple of 
years in Colombia, are helping Mexico reform its police and 
judiciary. They are costly and they require long-term 
commitments. By now though I think we have seen that there is 
really no other shortcuts.
    But is the U.S. Government set up to help in this way? The 
agencies that provide the most aid to Latin America who were 
represented on the last panel, INL at State, counternarcotics 
at Defense, they are counternarcotics agencies; they are not 
governance and development agencies. And the White House office 
providing policy direction, ONDCP, they are limited to a 
narrower counter-drug mandate, too.
    These agencies have important contributions to make, but I 
think the natural lead agency for civilian governance aid would 
be US AID. Where judicial reform is involved it would be US AID 
and the Department of Justice. In the past, there has been aid 
for these priorities, but it has usually been channeled through 
the State Department's international narcotics control account. 
I think that is unnecessary and it adds an extra layer that 
slows the delivery of aid.
    If we move in this direction, what will happen? If we 
expand the amount of territory that is governed and strengthen 
the rule of law in countries like Colombia and Mexico, those 
countries could become less hospitable to cocaine, but global 
demand for cocaine is likely to remain stable. The balloon 
effect tells us supply will move to other countries with weaker 
governance and greater impunity. Peru and Bolivia are seeing 
more cocaine right now. Central America is seeing more trans-
shipment and cartel activity.
    We have to be vigilant about where the trade is migrating 
and start working proactively with those governments to 
strengthen their own capacities, especially their civilian and 
judicial capacities.
    Again, ONDCP and other counter-drug agencies will have an 
important role to play, but from now on it must be in support 
of a much larger governance and justice effort.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Isacson follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.072
    
    [GRAPHIC] [TIFF OMITTED] T5556.073
    
    [GRAPHIC] [TIFF OMITTED] T5556.074
    
    [GRAPHIC] [TIFF OMITTED] T5556.075
    
    [GRAPHIC] [TIFF OMITTED] T5556.076
    
    [GRAPHIC] [TIFF OMITTED] T5556.077
    
    [GRAPHIC] [TIFF OMITTED] T5556.078
    
    [GRAPHIC] [TIFF OMITTED] T5556.079
    
    [GRAPHIC] [TIFF OMITTED] T5556.080
    
    [GRAPHIC] [TIFF OMITTED] T5556.081
    
    [GRAPHIC] [TIFF OMITTED] T5556.082
    
    [GRAPHIC] [TIFF OMITTED] T5556.083
    
    [GRAPHIC] [TIFF OMITTED] T5556.084
    
    [GRAPHIC] [TIFF OMITTED] T5556.085
    
    [GRAPHIC] [TIFF OMITTED] T5556.086
    
    [GRAPHIC] [TIFF OMITTED] T5556.087
    
    [GRAPHIC] [TIFF OMITTED] T5556.088
    
    [GRAPHIC] [TIFF OMITTED] T5556.089
    
    [GRAPHIC] [TIFF OMITTED] T5556.090
    
    Mr. Kucinich. Thank you.
    Ms. Felbab-Brown, proceed.

                STATEMENT OF VANDA FELBAB-BROWN

    Ms. Felbab-Brown. Thank you, Mr. Chairman and Mr. Tierney. 
I am honored to have the opportunity to address you.
    As long as there is strong demand for illicit narcotics, 
supply side measures should not be and cannot be expected to 
stop supply and prevent consumption; however, supply side 
policies do have a great impact on the level of threat that the 
drug trade and drug trafficking organizations and other non-
state actors pose to state and societies in source and trans-
shipment countries. They impact country intensity, 
institutional development, and human rights, and basic state 
society relations in source and trans-shipment countries. Often 
they do not do so in a positive way.
    Let me now highlight some real general lessons about the 
effect of supply side policies on these broader issues, and I 
will be happy in the question period to talk specifically about 
Afghanistan, Mexico, or Colombia.
    The drug trade generates multiple threats to the United 
States and other states and societies. It often threatens 
public safety, at times even national security, in supply and 
trans-shipment countries. It can also compromise the political 
systems by increasing corruption and penetration by criminal 
entities, and undermine legal economies.
    At the same time, large populations around the world in 
areas of minimal state presence, great poverty, and social and 
political marginalization are dependent on illicit economies, 
including the drug trade, for basic survival and the 
satisfaction of other socio-economic needs.
    Supply side measures such as eradication and interdiction 
have not yet succeeded in disrupting global supply of drugs in 
any lasting way; however, supply side measures have at times 
been effective in suppressing production in particular locales. 
A good security is a key condition for this success.
    Short of great political oppression that is deeply 
inconsistent with U.S. values and interest, the second 
condition for success of supply side policy and suppressing 
production in particular locales is a multi-faceted state 
building effort that seeks to strengthen the bonds between the 
state and marginalized communities dependent or vulnerable to 
participation in the drug trade.
    One component of such a program is the proper sequencing of 
alternative livelihood efforts and eradication, with 
eradication being implemented only when legal economic 
alternatives are in place.
    Effective alternative livelihoods requires that it be 
designed as real funding, long-lasting, and comprehensive 
approach that does not merely center on searching for the 
replacement crop. It really amounts to either comprehensive 
rural development, and in places like Mexico or Brazil a 
complex urban planning.
    The state building approach also needs to include other 
components of state presence such as the strengthening of law 
enforcement and justice and correction systems. But it needs to 
do so in a way that holds these other mechanisms and components 
in the state accountable to citizens.
    Interdiction does play a critical part in supply side 
policies, including in ways to achieve these state building 
objectives, but it should not be conceived primarily as a 
mechanism to stop supply, but rather as a mechanism to beef up 
law enforcement, to prevent the ability of drug trafficking 
organizations to coerce or corrupt a state and societies.
    Stopping weapons flows and anti money laundering measures 
add important components, but they should not be overstated in 
their effectiveness. They do not represent silver bullets and, 
indeed, they are often some of the least effective approaches 
to be undertaken.
    Even when successful in particular locales, supply side 
measures have inevitably transferred the transshipment or 
supply problems to new locales, whether these are new areas 
within the country or they are new countries altogether.
    The recognition of the balloon effect requires strategic 
prioritization of effort. The imperative to mitigate spill-over 
effects to other countries, however, should not give impetus to 
simply rush to assist with counternarcotics law enforcement 
efforts to new areas. Some of these areas, including in Central 
America and West Africa, have such weak state and law 
enforcement capacity and such high levels of corruption, the 
capacity to construct or absorb external assistance is limited.
    In devising supply side policies, the United States needs 
to be aware of the limits to effectiveness of outside policy 
intervention and assistance. If we accept the proposition that 
supply side policies are a critical component of state building 
efforts and, indeed, should be construed as state building 
efforts, we need to realize that there is only so much an 
outside country can do to change the basic socio-economic and 
political arrangements that persist in countries. Indeed, these 
socio-political arrangements, such as taxation system, will 
have great affect on the effectiveness of counternarcotics 
policies.
    It is imperative that the U.S. Congress demands of the 
Executive detailed reporting on the design and effects of 
counternarcotics policies abroad that focuses not simply on 
outputs but, indeed, outcomes.
    Measures to reduce demand abroad must be a key component of 
U.S. counternarcotics policies. Many countries today have 
consumption levels on par or even greater than the United 
States. Many of these are located in Asia and Latin America.
    Finally, it is important that consideration is given in the 
design of policies to second-degree effects and unintended 
consequences. A regular part of any policy analysis should be 
to consider where supply or smuggling would shift if 
counternarcotics efforts are successful in particular locales. 
What kind of illegal enterprises or economies will criminal 
groups turn if their proceeds from the drug trade are 
diminished? Will they, in fact, seek to penetrate to a greater 
degree the legal economies? And then do these developments pose 
a greater threat to the United States and partner countries 
than the current conditions?
    Thank you.
    [The prepared statement of Ms. Felbab-Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.091
    
    [GRAPHIC] [TIFF OMITTED] T5556.092
    
    [GRAPHIC] [TIFF OMITTED] T5556.093
    
    [GRAPHIC] [TIFF OMITTED] T5556.094
    
    [GRAPHIC] [TIFF OMITTED] T5556.095
    
    [GRAPHIC] [TIFF OMITTED] T5556.096
    
    [GRAPHIC] [TIFF OMITTED] T5556.097
    
    [GRAPHIC] [TIFF OMITTED] T5556.098
    
    [GRAPHIC] [TIFF OMITTED] T5556.099
    
    [GRAPHIC] [TIFF OMITTED] T5556.100
    
    [GRAPHIC] [TIFF OMITTED] T5556.101
    
    [GRAPHIC] [TIFF OMITTED] T5556.102
    
    [GRAPHIC] [TIFF OMITTED] T5556.103
    
    [GRAPHIC] [TIFF OMITTED] T5556.104
    
    [GRAPHIC] [TIFF OMITTED] T5556.105
    
    [GRAPHIC] [TIFF OMITTED] T5556.106
    
    Mr. Kucinich. Thank you.
    Professor Kleiman.

                   STATEMENT OF MARK KLEIMAN

    Mr. Kleiman. Mr. Chairman, it is an honor to be invited to 
testify before this body. Mr. Chairman, having required me to 
take an oath to tell the whole truth, I hope you will pardon me 
if I don't pull any punches.
    My theme today is the logic of counter-drug strategies in 
the context of insurgency and terrorism. My claim is that we 
have let the pieties of the drug war blind us to economic 
reality and commit us to unattainable goals.
    We make some drugs illegal because of the problem of drug 
abuse, and it seems to be the best refutation to the claim that 
we would improve matters by legalizing them is to look at the 
one drug we legalized, alcohol, which causes more damage than 
all the illicit drugs combined. By the way, this somewhat 
modifies, Mr. Chairman, the claim that the United States has an 
unusual appetite for drugs. We have an unusual appetite for 
illicit drugs. In fact, if you add back alcohol, we are sort of 
in the middle of the league table.
    Anyway, we ban drugs because we are worried about drug 
abuse. Once the drugs are illegal, trafficking in them is a 
source of criminal revenue. The same capacities that allow an 
organization to function as a terrorist organization--secrecy, 
loyalty, weaponry--allow it also to function as a drug dealing 
organization, and when a terrorist or insurgent group controls 
a piece of territory, it can collect money from drug dealers 
who operate in that territory, either as tax or in return for 
actual services in protecting drug dealers from one another and 
from law enforcement. And, indeed, drugs provided some of the 
funding for the Contras, for the FARC, for the Colombian Paras, 
for the Northern Alliance war lords, and for the Taliban.
    Preventing terrorists and insurgents from successfully 
engaging in or taxing drug dealing is one way to reduce their 
power, and fighting drug-related corruption is one way to 
improve governance. So much is true, but the following, Mr. 
Chairman, is not true: that doing drug law enforcement 
generally in areas where terrorists operate is the same as 
fighting terrorism, that counternarcotics is counterinsurgency. 
Not only is that not true, it is precisely backward. Drug 
enforcement raises prices. Volume doesn't go down nearly as 
much as price goes up, especially for exported drugs. 
Therefore, drug enforcement tends to make drug dealers, in 
general, richer, which indirectly benefits those who can 
extract taxes from them.
    Worse, insofar as terrorists function as drug dealers, they 
are among the harder sorts of drug dealers to catch because 
they have violence and influence at their command, so it is 
mostly their competitors we are going to put out of business 
unless we target very carefully. So drug enforcement without 
respect to persons, as one of your earlier witnesses mentioned, 
is exactly, exactly the wrong thing to do.
    Moreover, the value of protective services goes up as the 
intensity of enforcement goes up. The bigger a threat law 
enforcement is to drug dealing, the more it is worthwhile 
paying an insurgent or a war lord for protection. So untargeted 
drug law enforcement provides material support for terrorism. 
It is not anybody's intention, but that is the result. It is 
true in Afghanistan. I think it is true in Mexico.
    The goal, which has been discussed today extensively, the 
goal of stopping the flow is unattainable. Drug consumption in 
the United States is determined overwhelmingly by conditions in 
the United States, not abroad. We can redirect the flow. We can 
try to control the collateral damage. The effort to solve our 
drug problem in someone else's country is worse than futile.
    Mr. Chairman, the Myth of Sisyphus, who is punished for 
some outrageous misdeed in the afterlife by being forced to 
continually roll the stone up a hill, and as soon as he gets on 
top of the hill it rolls back down, the myth is familiar. I 
don't believe the GAO report on that myth is familiar, but it 
is entitled, ``Stone Rolling Goals Not Being Achieved: Sisyphus 
Needs to Assert Better Performance Measures.'' Then it goes on 
to say that he needs to push the stone up the hill more often 
and have a goal of doubling the amount of time it stays at the 
top of the hill before it rolls back down within the next 3 
years.
    When you are pursuing an exercise in futility it doesn't do 
any good to measure it more precisely. Of the cost of drugs in 
the United States to U.S. users, 90 percent is U.S. markups. We 
cannot fix this problem overseas. Yes, we can reduce drug 
production in some parts of Afghanistan and it will go up in 
other parts of Afghanistan.
    It was mentioned that a number, about 27 of the 34 
provinces of Afghanistan are now poppy-free. That is regarded 
as an accomplishment. The other seven are the ones controlled 
by the Taliban. So our accomplishment is to have made our 
enemies a monopolist in the world opium trade. I suggest that 
is not something we want to simply measure more accurately. It 
needs to be re-thought.
    And we need to change the rhetoric of international drug 
control. A report yesterday in the Chinese News Service quotes 
a U.N. official as dismissing the arguments that show how drug 
enforcement can enrich terrorists. It must be right, he says, 
to crack down on anyone who is deeply involved in the drug 
trade. Right? That is your drug enforcement without respect to 
persons. It must be right. Mr. Chairman, I submit that is the 
language of incantation, not of analysis. It must be right 
because we have been saying it for years, but that doesn't keep 
it from being wrong.
    So I claim that we need to rethink our policies in 
Afghanistan, targeted enforcement targeted at insurgents, anti-
corruption efforts. In Mexico I think we need to think about 
picking one of the big drug trafficking organizations and 
taking it down by making it uncompetitive.
    I will be happy to answer questions. Thanks.
    [The prepared statement of Mr. Kleiman follows:]

    [GRAPHIC] [TIFF OMITTED] T5556.107
    
    [GRAPHIC] [TIFF OMITTED] T5556.108
    
    [GRAPHIC] [TIFF OMITTED] T5556.109
    
    [GRAPHIC] [TIFF OMITTED] T5556.110
    
    [GRAPHIC] [TIFF OMITTED] T5556.111
    
    [GRAPHIC] [TIFF OMITTED] T5556.112
    
    [GRAPHIC] [TIFF OMITTED] T5556.113
    
    [GRAPHIC] [TIFF OMITTED] T5556.114
    
    [GRAPHIC] [TIFF OMITTED] T5556.115
    
    Mr. Kucinich. Thank you very much, Professor Kleiman.
    Mr. Isacson, in looking at your testimony, you talk about 
the extraordinary amount of money that has gone over the past 
for military aid related to counternarcotics. Our military 
budget carries within it headlong momentum that keeps funding 
hardware far into the future, notwithstanding exigent 
circumstances or long-term predicted circumstances for their 
use. Since such a substantial amount of money goes to fund the 
hardware side of this, is it possible that one of the driving 
forces for funding these ``counternarcotics efforts'' is a 
continued support for this military industrial complex?
    Mr. Isacson. I don't know who coined the term drug war 
industrial complex, but there is certainly is such a thing. I 
mean, there are----
    Mr. Kucinich. Such a thing as what?
    Mr. Isacson. As a drug war industrial complex where you 
have companies, whether they are making helicopters or other 
hardware, or whether they are contractors who are actually 
carrying out programs like aerial herbicide fumigation who have 
a very strong interest and actually do lobby actively in favor 
of increased counter-drug spending.
    Mr. Kucinich. Do you want to comment, Professor Felbab-
Brown? Do you have anything to say?
    [No response.]
    Mr. Kucinich. Let me ask you another question here. Dr. 
Felbab-Brown, what do you think about Professor Kleiman's 
conclusion that alternative livelihood programs in Afghanistan 
contribute directly to funding the insurgency--am I quoting 
this correctly--through taxes levied by the insurgents on the 
alternative livelihood programs?
    Mr. Kleiman. Right. There are two aspects of it.
    Mr. Kucinich. Did I characterize your conclusion correctly?
    Mr. Kleiman. One half of it is that there may be taxation 
of the effort. The other thing is, if you succeed in getting 
some farmers to not grow poppy, particularly in government-
controlled areas, you are increasing the demand for poppy in 
non-government-controlled areas.
    Mr. Kucinich. Ms. Felbab-Brown.
    Ms. Felbab-Brown. I agree that the proposition that the 
Taliban taxes a lot of different economies, both legal and 
illegal, including aid projects, and U.S. funded aid projects. 
That is a consequence of the fact that the government and the 
ISEF does not have good territorial control and be able to 
prevent Taliban penetration.
    I would, however, argue that it should not be the position 
then to cancel these programs, because I do not believe that 
insurgencies can be defeated through the efforts to bankrupt 
them. There is no evidence that any insurgency has as yet been 
defeated through efforts to bankrupt them, whether these 
efforts were interdiction of narcotics generating money or 
eradication programs.
    Mr. Kucinich. Well, indeed, you pointed out in your 
testimony that it is ``highly unlikely that interdiction 
measures can significantly reduce the Taliban's income and 
greatly limit its operational capacity.''
    Ms. Felbab-Brown. Indeed. However, I do believe that it is 
critical for preventing insurgencies, preventing 
counterinsurgencies, for defeating insurgencies to win the 
hearts and minds of the population. Offering better governance, 
greater security, and better economic options is the critical 
component of that.
    Mr. Kucinich. But in doing that you can talk about better 
government. There is an assumption that when we say better 
government we mean not the Taliban, we mean central government, 
but the corruption in the central government, which by now is 
legendary, as linked government with traffickers, and you are 
saying that there is a need to ``target government-linked 
traffickers to send a message that the era of impunity is 
over.''
    Ms. Felbab-Brown. And you are right, sir. Perhaps the 
Achilles heel of our project in Afghanistan is the poor quality 
of governance that includes corruption linked to drugs, 
includes many other forms of malfeasance and corruption. I 
agree with Professor Kleiman's testimony that the more we 
simply blanketly use law enforcement the more likely it is that 
the most violent armed actors will end up being the ones 
holding the largest proportion of the traffic. So I think there 
is some great wisdom in focusing on Taliban-linked traffickers. 
However, the other component of insurgency, of 
counterinsurgency is, of course, to show that the government is 
more just, can provide better governance.
    Because the corruption is so notorious and so detrimental, 
it is important that at least some of the highest linked 
traffickers, traffickers linked to the highest members of the 
government, are prosecuted and done so effectively.
    Mr. Kucinich. I am going to direct staff. I think that your 
testimony with respect to Afghanistan is quite compelling, 
particularly in terms of the how our programs can raise 
expectations among the population and then withdraw the money 
suddenly, and the expectations plummet, support for 
insurgencies continue. I am going to recommend your testimony 
to be read by the Secretary of Defense and by General Petraeus 
because I think that we really need to have a strong response 
from them about the observations that you have made before this 
subcommittee in your testimony.
    I am going to move on to Mr. Tierney, and then we will have 
another round of questions for this panel.
    Mr. Tierney.
    Mr. Tierney. Thank you. Hello to all of you and thank you 
for your testimony, written and oral, on that.
    Ms. Felbab-Brown, the program, the so-called Aviba-plus 
program that they are running out of Afghanistan down in 
Helmand and Kandahar Provinces, where they give cash for work, 
small grants basically to procure different equipment or 
whatever, vouchers for high-tech sort of things or the farming 
or the training with respect to all of that, have you had any 
knowledge about whether or not there has been any success with 
that or how that is going?
    Ms. Felbab-Brown. Well, Mr. Tierney, it is very difficult 
to judge success because the programs have been in place for a 
relatively little period, and often the reporting that we hear 
from members of the Executive are reporting on outputs, not 
necessarily outcomes, so I think there is a great need for 
careful monitoring.
    That said, I do have some concern along the lines that Mr. 
Kucinich raised. I am concerned that some of these programs are 
being designed as buy-outs of the population rather than 
effective, sustainable, long-term development. I understand the 
excruciating dilemma that the administration is facing, ISAF is 
facing, in needing to win hearts and minds, including because 
the lives of our men and women are at stake and because the 
time line is running out, but there is a real danger that the 
buyouts will not be effective, that they will not sufficiently 
buy the population, and at the same time, when they are no 
longer sustainable because funding ends, they will then be 
directly counterproductive. They will, in fact, alienate the 
population.
    We have seen that with many programs, but emphasis has been 
put on the physical structure. Development sort of isn't if you 
cannot kick the building, the school, as opposed to, for 
example, providing teachers or doctors, and people have been 
deeply, deeply disappointed and antagonized. And at the same 
time, we have not seen the programs such as offering a village 
a diesel generator as sufficient to generate intelligence flows 
to make a big difference on the battlefield.
    So, while I certainly understand the imperative to 
demonstrate to the population that a better future lies with 
the government supported by ISAF, I would be very concerned not 
to design the programs as short-term buy-offs.
    Mr. Tierney. A question for all of you. Do you think we are 
approaching this in the wrong way if we are seeing all of these 
as kind of counternarcotics programs as opposed to just 
focusing on development aspect of that and say there are many 
different outcomes you can have from a good development 
program, to say that it is just part of counternarcotics and 
focusing money for the narcotics program over there as opposed 
to broadening out the concept, moving forward? Would that be a 
better approach, Mr. Isacson?
    Mr. Isacson. I do agree that it is the wrong approach, 
because if you are calling it a counternarcotics program it 
completely changes how you measure success. You are not 
measuring how many people feel like they are governed. You are 
not measuring how many people have government representatives 
in their town saying you can't grow this any more but you have 
alternatives. You are measuring how many acres of crops were 
destroyed, or you are measuring some estimate of how many tons 
were produced, and that doesn't really capture the picture. It 
captures something that can perhaps show short-term gains and 
fluctuations, but not the overall trend.
    Mr. Tierney. Mr. Kleiman.
    Mr. Kleiman. Mr. Tierney, I completely agree. Insofar as we 
are measuring reductions in drug production, we are measuring 
exactly the wrong thing. We want to measure whether we are 
making farmers richer and more trustful of the government. 
Afghanistan currently has about 90 percent of the world's opium 
production. There is no country in the old world that is nearly 
competitive with Afghanistan in terms of producing opium. Now, 
I am not saying that 10 years from now there won't be another 
producer, because producers do change.
    In the near term, Afghanistan is going to produce all the 
opium that the old world wants, and that is then a function of 
supply and consumption conditions in Iran, in Russia, in 
Europe, in Pakistan.
    To try to reduce drug production in Afghanistan is 
completely misguided. A very small portion of the price that a 
drug user pays for heroin is accounted for by the value of 
poppy at the farm gate, or even of heroin at the refinery gate 
in Afghanistan. So a lot of enforcement effort can force that 
price up a little bit. It is not going to change consumption 
very much. If you really wanted to reduce drug consumption in 
Afghanistan, pray for a failed state in Burma. If Burma 
completely collapsed, it might compete with Afghanistan in 
poppy production. But we are not going to reduce poppy 
production in Afghanistan by chopping down crops or by paying 
people not to grow crops or by arresting heroin processors or 
dealers. It just doesn't work that way.
    Of the arable land in Afghanistan, 4 percent is planted in 
poppy. Land is not scarce. We have well demonstrated that we 
can move poppy production around Afghanistan but not change the 
volume. I don't think changing the volume is a realistic goal. 
Afghanistan, of course, is ridiculous. We get very little 
heroin from Afghanistan, but for the whole world the notion 
that the goal of our foreign drug programs is to protect drug 
consumers in the United States, completely misguided.
    We want to protect drug consumers in the United States, we 
have to do stuff about drug demand in the United States. That 
does not mean offering treatment to addicts and lying to school 
children. It means finding the heavy drug users, who are mostly 
in the criminal justice system, getting them to stop. Professor 
Hawkin will be talking about that tomorrow, I think.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you, Mr. Tierney. We are going to have 
one brief round of questions of the witnesses.
    I am looking at your testimony, Mr. Isacson, and it is 
very, very well researched, much appreciated. I want to ask 
you, in your research have you ever seen any indication that 
there is a narcotics strategy being used by intelligence 
interests to try to destabilize governments? Is that possible?
    For example, we have received information--I mean, it is 
probably public knowledge, but that there has been a 
proliferation of drugs from certain areas in Asia into Russia. 
Now, have you ever heard, aside from the obvious incentives of 
selling drugs----
    Mr. Isacson. Actual fostering of narcotics in order to 
undermine an enemy country, something like that?
    Mr. Kucinich. Has that ever happened?
    Mr. Isacson. I cannot think of any real examples in Latin 
America.
    Mr. Kucinich. That is just the stuff of science fiction?
    Mr. Isacson. I would have to look at maybe the work of 
Professor Al McCoy, who did some work on this in southeast 
Asia, but I am not very familiar with it.
    Mr. Kucinich. Does anyone have anything to offer about 
that?
    Ms. Felbab-Brown. Well, during the 1980's, Soviets were in 
Afghanistan. Soviet military faced very large addiction rates, 
and the Soviet military leadership often believed that this was 
not accidental.
    Mr. Kucinich. That what was not accidental?
    Ms. Felbab-Brown. That the addiction rates among the Soviet 
military were not accidental, and they believed that the United 
States perhaps encouraged the addiction rates. Of course, the 
reality is that the conditions of the Russian troops, the 
Soviet troops in Afghanistan were often so difficult that it 
motivated many soldiers without outside help to resort to 
narcotics.
    Mr. Kleiman. Amen to that. There is a long-term flip of 
this, right? I mean, you can get uncounted numbers of pamphlets 
explaining how the communists are flooding the United States 
with drugs, right, or it was the North Koreans or it was the 
Cubans or it was the Russians. There is a persistent fantasy 
that the cause of drug trafficking is drug traffickers. The 
cause of drug trafficking is consumption.
    Mr. Kucinich. Right.
    Mr. Kleiman. And no, it doesn't need any help from the 
United States or anybody else for Russia, given its current 
economic and social and political conditions, to have a 
terrific drug problem.
    Mr. Kucinich. I would just ask a final question to each 
member of the panel. Spending on interdiction and international 
counternarcotics programs has increased by almost 100 percent 
since 2002. If you were asked which programs should be cut to 
get us back to the spending levels of, let's say, the pre-Bush 
administration, what would be your recommendation?
    Mr. Isacson. If you were to divide the hard side strategies 
into interdiction, eradication, and sort of going after the 
king pins, I would say eradication should take the deepest cut 
by far because it really has almost been counterproductive in 
some places.
    Ms. Felbab-Brown. I agree with that statement, and I would 
suggest, however, that interdiction should be reoriented from 
the futile effort of thinking that borders can be closed, that 
the U.S. borders or borders in Afghanistan or borders in 
Colombia, and instead focus on building effective law 
enforcement that tackles crime, street crime not just organized 
crime, and is accountable to other citizens of the country.
    Mr. Kucinich. Professor.
    Mr. Kleiman. It was mentioned earlier in the hearing that 
the task force in the Caribbean substantially disrupted the 
drug trade from Colombia into South Florida. That is true. What 
was not mentioned but is explained quite clearly in Rob 
Bonner's foreign policy article is that the result was the 
development of the throughput trade through Central America and 
Mexico. The current Mexican crisis is the consequence of our 
successful interdiction effort in the Caribbean.
    It seems to me if we had to choose between destabilizing 
the Bahamas and destabilizing Mexico, I think that is an easy 
choice, so the first thing I would cut would be the Caribbean 
effort. Now, I say that not having to get any votes in Florida. 
But we are currently doing something really disastrous to 
Mexico by making it hard to get drugs in the other way. If we 
stop imagining that we are going to solve our drug problem and 
start to say, look, the flow into the United States depends on 
demand in the United States and the sales organizations in the 
United States, that we can do something about them, and then 
all we can do is decide how the drugs come in and how much 
damage they do. That seems to me ought to be the new focus.
    As long as we tell the interdiction people that their job 
is keeping drugs out of the country, we are condemning them to 
futility. As Jack Lawn said when he was DEA Administrator and a 
Member of Congress asked him why we couldn't just keep the 
drugs out of the country, he said, Congressman, if we build a 
50-foot wall around the United States, the traffickers would 
buy 51-foot ladders.
    Mr. Kucinich. Because they are supplying a demand.
    Mr. Kleiman. Because they are supplying a demand we can 
sometimes reduce the street availability of drugs in a way that 
reduces consumption. That has turned out to be very hard. We 
have 15 times as many cocaine dealers in prison in the United 
States today as we had in 1980. The price of cocaine is down by 
90 percent.
    What we can do more effectively, since most of the drugs go 
to heavy users, most of the heavy users are criminally active 
and get arrested, so they are going to be on pre-trial release, 
on probation, or on parole when they are not in prison or jail. 
The HOPE project has demonstrated that you can enormously 
reduce their drug consumption, and since they are where the 
drug consumers are, that is our hope for reducing the damage we 
are doing to Mexico through our demand for illicit drugs.
    Mr. Kucinich. This subcommittee is going to continue its 
oversight of the Office of National Drug Control Policy and of 
the more broad question of supply and demand with respect to 
the United States, and so, because of that, you as witnesses, 
because you have been so helpful to the work of this 
subcommittee, you may find yourself being invited again to 
testify. Each of you has developed a very incisive expertise 
that has helped to inform the work of this subcommittee, and we 
are very grateful for that. I just want to express that to you 
individually and collectively.
    This is the Domestic Policy Subcommittee of Oversight and 
Government Reform. The topic of today's hearing has been 
``International Counternarcotics Policies: Do They Reduce 
Domestic Consumption or Advance Other Foreign Policy Goals?''
    We have been gifted with three panels of witnesses, all of 
whom have helped us to explore this question, which we will 
continue.
    I want to thank the staff of our majority as well as 
minority for their participation, as well as for Mr. Tierney's 
and Mr. Jordan's participation.
    This committee stands adjourned.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5556.116

[GRAPHIC] [TIFF OMITTED] T5556.117

[GRAPHIC] [TIFF OMITTED] T5556.118

[GRAPHIC] [TIFF OMITTED] T5556.119

[GRAPHIC] [TIFF OMITTED] T5556.120

[GRAPHIC] [TIFF OMITTED] T5556.121

[GRAPHIC] [TIFF OMITTED] T5556.122

[GRAPHIC] [TIFF OMITTED] T5556.123

[GRAPHIC] [TIFF OMITTED] T5556.124

[GRAPHIC] [TIFF OMITTED] T5556.125

[GRAPHIC] [TIFF OMITTED] T5556.126

[GRAPHIC] [TIFF OMITTED] T5556.127

[GRAPHIC] [TIFF OMITTED] T5556.128

[GRAPHIC] [TIFF OMITTED] T5556.129

[GRAPHIC] [TIFF OMITTED] T5556.130

[GRAPHIC] [TIFF OMITTED] T5556.131

[GRAPHIC] [TIFF OMITTED] T5556.132

[GRAPHIC] [TIFF OMITTED] T5556.133

[GRAPHIC] [TIFF OMITTED] T5556.134

[GRAPHIC] [TIFF OMITTED] T5556.135

[GRAPHIC] [TIFF OMITTED] T5556.136

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
